<html>
<title> - OVERSIGHT HEARING ON NO ROAD MAP, NO DESTINATION, NO JUSTIFICATION: THE IMPLEMENTATION AND IMPACTS OF THE REORGANIZATION OF THE DEPARTMENT OF THE INTERIOR</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


NO ROAD MAP, NO DESTINATION, NO JUSTIFICATION: THE IMPLEMENTATION AND 
    IMPACTS OF THE REORGANIZATION OF THE DEPARTMENT OF THE INTERIOR

=======================================================================

                           OVERSIGHT HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        Tuesday, April 30, 2019

                               __________

                           Serial No. 116-13

                               __________

       Printed for the use of the Committee on Natural Resources

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

        Available via the World Wide Web: http://www.govinfo.gov
                                   or

          Committee address: http://naturalresources.house.gov
          
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-257 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------          
          
          


                     COMMITTEE ON NATURAL RESOURCES

                      RAUL M. GRIJALVA, AZ, Chair
                    DEBRA A. HAALAND, NM, Vice Chair
   GREGORIO KILILI CAMACHO SABLAN, CNMI, Vice Chair, Insular Affairs
               ROB BISHOP, UT, Ranking Republican Member

Grace F. Napolitano, CA              Don Young, AK
Jim Costa, CA                        Louie Gohmert, TX
Gregorio Kilili Camacho Sablan,      Doug Lamborn, CO
    CNMI                             Robert J. Wittman, VA
Jared Huffman, CA                    Tom McClintock, CA
Alan S. Lowenthal, CA                Paul A. Gosar, AZ
Ruben Gallego, AZ                    Paul Cook, CA
TJ Cox, CA                           Bruce Westerman, AR
Joe Neguse, CO                       Garret Graves, LA
Mike Levin, CA                       Jody B. Hice, GA
Debra A. Haaland, NM                 Aumua Amata Coleman Radewagen, AS
Jefferson Van Drew, NJ               Daniel Webster, FL
Joe Cunningham, SC                   Liz Cheney, WY
Nydia M. Velazquez, NY               Mike Johnson, LA
Diana DeGette, CO                    Jenniffer Gonzalez-Colon, PR
Wm. Lacy Clay, MO                    John R. Curtis, UT
Debbie Dingell, MI                   Kevin Hern, OK
Anthony G. Brown, MD                 Russ Fulcher, ID
A. Donald McEachin, VA
Darren Soto, FL
Ed Case, HI
Steven Horsford, NV
Michael F. Q. San Nicolas, GU
Matt Cartwright, PA
Paul Tonko, NY
Vacancy

                     David Watkins, Chief of Staff
                        Sarah Lim, Chief Counsel
                Parish Braden, Republican Staff Director
                   http://naturalresources.house.gov
                   
                              ------                                

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                           TJ COX, CA, Chair
              LOUIE GOHMERT, TX, Ranking Republican Member

Debbie Dingell, MI                   Paul A. Gosar, AZ
A. Donald McEachin, VA               Mike Johnson, LA
Michael F. Q. San Nicolas, GU        Jenniffer Gonzalez-Colon, PR
Raul M. Grijalva, AZ                 Rob Bishop, UT, ex officio

                              --------                                
                              
                              CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Tuesday, April 30, 2019..........................     1

Statement of Members:
    Cox, Hon. TJ, a Representative in Congress from the State of 
      California.................................................     1
        Prepared statement of....................................     3
    Gohmert, Hon. Louie, a Representative in Congress from the 
      State of Texas.............................................     4
        Prepared statement of....................................     5

Statement of Witnesses:
    Bromwich, Michael, Founder and Managing Principal, The 
      Bromwich Group, Washington, DC.............................    21
        Prepared statement of....................................    23
    Cameron, Scott, Principal Deputy Assistant Secretary for 
      Policy, Management and Budget, U.S. Department of the 
      Interior, Washington, DC...................................     6
        Prepared statement of....................................     8
        Questions submitted for the record.......................    11
    Clark, Jamie, President and CEO, Defenders of Wildlife, 
      Washington, DC.............................................    27
        Prepared statement of....................................    28
    Frazier, Harold, Chairman, Cheyenne River Sioux Tribe, Eagle 
      Butte, South Dakota........................................    13
        Prepared statement of....................................    14

Additional Materials Submitted for the Record:
    List of documents submitted for the record retained in the 
      Committee's official files.................................    54

    Submission for the Record by Rep. Cox

        National Parks Conservation Association, John Garder, 
          Senior Director of Budget and Appropriations, Testimony 
          for the Record.........................................    50

    Submission for the Record by Rep. Grijalva

        USET--United South and Eastern Tribes Sovereignty 
          Protection Fund, Testimony for the Record..............    51



 
OVERSIGHT HEARING ON NO ROAD MAP, NO DESTINATION, NO JUSTIFICATION: THE 
 IMPLEMENTATION AND IMPACTS OF THE REORGANIZATION OF THE DEPARTMENT OF 
                              THE INTERIOR

                              ----------                              


                        Tuesday, April 30, 2019

                     U.S. House of Representatives

              Subcommittee on Oversight and Investigations

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to notice, at 10 a.m., in 
room 1324, Longworth House Office Building, Hon. TJ Cox 
[Chairman of the Subcommittee] presiding.
    Present: Representatives Cox, Dingell, Grijalva; Gohmert, 
Gosar, and Bishop (ex officio).

    Mr. Cox. The Subcommittee on Oversight and Investigations 
will now come to order.
    The Subcommittee on Oversight and Investigations is meeting 
today to hear testimony on ``No Road Map, No Destination, No 
Justification: the Implementation and Impacts of the 
Reorganization of the Department of the Interior.''
    Under Committee Rule 4(f), any oral opening statements at 
the hearing are limited to the Chairman and the Ranking 
Minority Member. Therefore, I ask unanimous consent that all 
other Members' opening statements be made part of the hearing 
to record today if they are submitted to the Clerk by 5 p.m.
    Hearing no objection, so ordered.

STATEMENT OF THE HON. TJ COX, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Mr. Cox. One of the first things Ryan Zinke did after 
becoming Secretary was try to implement a massive solution in 
search of a problem. The weakness in that approach to 
reorganizing the 70,000-employee Department of the Interior 
became clear early in the process.
    We have not seen data to show that there is a problem. We 
have not seen data to prove that a reorganization was the way 
to solve the problem. Nor have we seen a cost benefit analysis 
or workforce planning data. No measurable goals; no 
comprehensive plan. And that is worth repeating. A massive 
reorganization, and we have seen no plan. The Department has 
provided no plan to know if the reorganization is achieving its 
goals. We have not seen a timeline.
    In 2018, the Government Accountability Office laid out what 
agencies need to do if they want their reorganization to be 
successful. Unsurprisingly, the recommendations include all the 
basic considerations that I mentioned, which have not been 
provided by Secretaries Bernhardt or Zinke.
    Before being elected to Congress last year, I owned a 
couple of businesses and a community development organization. 
And as a businessman, I can tell you with confidence that if I 
tried to tell company investors or shareholders that I was 
going to reorganize the company without showing them evidence 
of a need to do so, or a way to measure that success, a plan, I 
would be laughed out of the room. Yet, that is precisely the 
case at the Department of the Interior.
    The actions that have been taken so far in the name of the 
reorganization have already had significant impacts. Starting 
in 2017, dozens of the most experienced, most effective 
employees were moved out of their positions, into positions for 
which they had no qualifications or interest, and with very 
little notice. Most felt the moves were punitive or based on 
political ideology.
    The Office of the Inspector General was not able to 
determine whether the law was broken because documentation was 
so shoddy. These moves have lowered morale, created a culture 
of fear, and forced people and institutional knowledge out of 
the agency. And this was perhaps not an accident.
    About $60 million of funding has been diverted for the 
reorganization at a time of major proposed cuts to the 
agencies. That kind of money could fund critical infrastructure 
projects for people in the Central Valley of California, who 
desperately need clean drinking water. It could have helped a 
number of national parks address their maintenance backlogs. It 
could have helped fund more than enough people to help Interior 
get rid of its FOIA backlog to allow the American people to 
know what their agency is doing.
    To try to uphold our constitutional prerogative to provide 
oversight on this major undertaking, this Committee has 
repeatedly sought information from Interior. We have been 
repeatedly denied.
    Most recently, we tried to make it as easy as possible for 
them. In March 2017, President Trump issued Executive Order 
13781, directing the heads of each executive agency to submit 
to the Office of Management and Budget a reorganization plan 
within 180 days.
    On April 10, Chairman Grijalva and I sent an official 
documents request to Interior asking for that plan. Not all 
correspondence, not all records, not even two documents, just 
one single document. We know it exists. We have the e-mail that 
says it is ready for final delivery. We even gave Interior the 
file name of the document so they didn't have to spend time 
looking for it. It is Agency Reform Plan--FINAL 9.12.17.pdf. I 
am not sure how much easier or quicker we could have made it, 
but we still don't have it.
    If Secretary Bernhardt wants to implement the Zinke 
reorganization plan, he needs to start by providing Congress 
with a complete justification and a plan. He needs to work with 
Congress, this Subcommittee, the American people, and Interior 
employees, instead of seeing us as obstacles to overcome.
    A reorganization can do a lot for an agency if it is done 
right. Let's work together to make sure it is.

    [The prepared statement of Mr. Cox follows:]
Prepared Statement of the Hon. TJ Cox, Chair, Subcommittee on Oversight 
                           and Investigations
    One of the first things Ryan Zinke did after becoming Secretary was 
to try to implement a massive solution in search of a problem. The 
weakness in that approach to reorganizing the 70,000-employee 
Department of the Interior became clear early in the process.
    We have not seen data to show there is a problem. We have not seen 
data to prove that a reorganization was the way to solve the problem. 
Nor have we seen a cost benefit analysis or work force planning data. 
No measurable goals. No comprehensive plan. That's worth repeating--a 
massive reorganization--and we have seen no plan. The Department has 
provided no monitoring plan to know if the reorganization is achieving 
its goals. We have not seen a timeline.
    In 2018, the Government Accountability Office laid out what 
agencies need to do if they want their reorganizations to be 
successful. Unsurprisingly, their recommendations include all the basic 
considerations that I mentioned, which have not been provided by 
Secretaries Bernhardt or Zinke.
    Before being elected to Congress last year, I owned a couple 
businesses and a community development organization. As a businessman, 
I can tell you with confidence that if I tried to tell company 
investors or shareholders that I was going to reorganize a company 
without showing them evidence of a need to do so or a way to measure 
success, a plan, I would be laughed out of the room.

    And yet that is precisely the case at the Department of the 
Interior.

    The actions that have been taken so far in the name of the 
reorganization have already had significant impacts. Starting in 2017, 
dozens of the most experienced, most effective employees were moved out 
of their positions, into positions for which they had no qualifications 
or interest, with very little notice. Most felt the moves were punitive 
or based on political ideology. The Office of the Inspector General was 
not able to determine whether the law was broken because documentation 
was so shoddy. These moves have lowered morale, created a culture of 
fear, and forced people and institutional knowledge out of the agency. 
That was perhaps not an accident.
    About $60 million of funding has been diverted for the 
reorganization at a time of major proposed cuts to the agencies. That 
kind of money could fund critical infrastructure projects for people in 
the Central Valley of California who desperately need clean drinking 
water. It could have helped a number of National Parks address their 
maintenance backlogs. It could have funded more than enough people to 
help Interior get rid of its FOIA backlog to allow the American people 
to know what their agency is doing.
    To try to uphold our constitutional prerogative to provide 
oversight on this major undertaking, this Committee has repeatedly 
sought information from Interior. We have repeatedly been denied. Most 
recently, we tried to make it as easy as possible for them. In March 
2017, President Trump issued Executive Order 13781, directing the heads 
of each executive agency to submit to the Office of Management and 
Budget a reorganization plan within 180 days.
    On April 10, Chairman Grijalva and I sent an official documents 
request to Interior, asking for that plan. Not all correspondence, not 
all records, not even two documents. Just one single document. We know 
it exists. We have the e-mail that says it is ready for final delivery. 
We even gave Interior the file name of the document, so they didn't 
have to spend time looking for it: Agency Reform Plan-FINAL 
9.12.17.PDF. I'm not sure how much easier and quicker we could make it. 
But we still don't have it.
    If Secretary Bernhardt wants to implement the Zinke reorganization 
plan, he needs to start by providing Congress with a complete 
justification and a plan. He needs to work with Congress, this 
Subcommittee, the American people, and Interior employees, instead of 
seeing us obstacles to overcome.

    A reorganization can do a lot of good for an agency if it's done 
right. Let's work together to make sure it is.

                                 ______
                                 

    Mr. Cox. With that, I now recognize Ranking Member Gohmert 
for his opening statement.

   STATEMENT OF THE HON. LOUIE GOHMERT, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Gohmert. Thank you, Chairman Cox, for holding this 
hearing--for two reasons: (1) because transforming the 
Department of the Interior is an important topic that does 
deserve additional congressional scrutiny; and (2) because this 
hearing falls completely within the jurisdiction of this 
Committee, which I hope will continue through the 116th 
Congress.
    The reorganization of the Department of the Interior is 
just a small part in a larger effort of this Administration to 
overhaul the entire Federal Government to make it more 
efficient and effective. In fact, in the Department of the 
Interior, as the Chairman alluded to, there is a tremendous 
backlog of $10 billion or more in simple maintenance repair 
with what property the Department of the Interior has. Yet, in 
recent years, the trend has been to acquire more and more 
property without even bothering to repair and maintain the 
property it had.
    I welcome the reorganization. I think it is past time that 
such should have been done. And it is consistent with the 
directive; in March 2017, President Donald Trump issued 
Executive Order 13781, directing the head of each agency to 
submit reorganization plans in order to improve the efficiency, 
effectiveness, and accountability of that agency.
    In response to this Executive Order, former Secretary Ryan 
Zinke, when he was not having to answer claims against him that 
kept him busy and cost him a tremendous amount of individual 
money, he began undertaking bold reforms, modernizing the way 
the Department of the Interior operates. I am confident the 
newly confirmed Secretary, David Bernhardt, will be able to 
continue and complete the historic reorganization of the 
Department.
    Ultimately, this reorganization will result in reduced 
bureaucratic redundancy, increased Federal accountability, 
improve coordination between the Federal Government, state 
agencies, and local governments, while spending less money. I 
too look forward to seeing the reorganization plan.
    The Department of the Interior has already made headway on 
this reorganization by transforming the past management 
structure of the Department, which consisted of 8 bureaus, 49 
regions, each operating in a unique patchwork of boundaries, 
into 12 unified regional boundaries based on watersheds and 
ecosystems.
    This approach will allow the Department to move away from 
the one-size-fits-all solutions and focus resources on better 
serving their new regional boundaries. These new management 
plans will decrease redundancy while making coordination 
between different land management agencies more efficient.
    Moving the decision makers of the Department closer to the 
field will add an increased level of accountability not 
available within the current model of concentrating bureaucracy 
in DC. Many decision makers within the Department of the 
Interior are located thousands of miles away from the land and 
people that their decision will affect.
    For example, the Bureau of Land Management oversees nearly 
385,000 miles of public lands; 99 percent of this land is in 
western states and Alaska. Why should these lands continue to 
be managed by decision makers inside this beltway?
    While several details of the reorganization plan remain 
unconfirmed, I am afraid, based on the title of today's 
hearing, the Majority merely intends to spend time criticizing 
and tearing down the plan. That said, I hope we don't miss the 
opportunity to truly explore how the Department of the Interior 
can evolve to better serve the American people and participate 
in a fruitful discussion.
    Historically, agency reorganizations have not been a 
partisan issue. Many different agencies and bureaus have 
attempted reorganization plans throughout this Nation's history 
by both Republican and Democratic administrations. There is 
much that could be done to transform the Department of the 
Interior to better address the challenges it will face in the 
21st century, and I am glad we are holding the hearing today to 
explore those options. I look forward to hearing testimony 
today.
    Thank you, Mr. Chairman.

    [The prepared statement of Mr. Gohmert follows:]
     Prepared Statement of the Hon. Louie Gohmert, Ranking Member, 
              Subcommittee on Oversight and Investigations
    Thank you, Chairman Cox, for holding this hearing. And for two 
reasons: first, because transforming the Department of the Interior is 
an important topic that does deserve additional congressional scrutiny; 
second, because this hearing falls completely within the jurisdiction 
of this Committee, which I hope will continue through the 116th 
Congress.
    The reorganization of the Department of the Interior is just a 
small part in a larger effort of this Administration to overhaul the 
entire Federal Government to make it more efficient and effective. In 
fact, in the Department of the Interior, as the Chairman alluded to, 
there is a tremendous backlog of $10 billion or more in simple 
maintenance repair with what property the Department of the Interior 
has. Yet in recent years the trend has been to acquire more and more 
property without even bothering to repair and maintain the property it 
had.
    I welcome the reorganization. I think it is overtime, that is past 
time, that such should have been done. And it is consistent with the 
directive. In March 2017 President Donald Trump issued Executive Order 
13781, directing the head of each agency to submit reorganization plans 
in order to improve the efficiency, effectiveness, and accountability 
of that agency.
    In response to this executive order, former Secretary Ryan Zinke, 
when he was not having to answer claims against him that kept him busy 
and cost him a tremendous amount of individual money, he began 
undertaking bold reforms, modernizing the way the Department of the 
Interior operates. I am confident the newly confirmed Secretary, David 
Bernhardt, will be able to continue and complete the historic 
reorganization of the Department.
    Ultimately, this reorganization will result in reduced bureaucratic 
redundancy, increased Federal accountability, improve coordination 
between the Federal Government, state agencies, and local governments, 
while spending less money. I too look forward to seeing the 
reorganization plan.
    The Department of the Interior has already made headway on this 
reorganization by transforming the past management structure of the 
Department, which consisted of 8 bureaus, 49 regions, each operating in 
a unique patchwork of boundaries, to 12 unified regional boundaries 
based on watersheds and ecosystems.
    This approach will allow the Department to move away from the one-
size-fits-all solutions and focus resources on better serving their new 
regional boundaries. These new management plans will decrease 
redundancy while making coordination between different land management 
agencies more efficient.
    Moving the decision makers of the Department closer to the field 
will add an increased level of accountability not available within the 
current model of concentrating bureaucracy in DC. Many decision makers 
within the Department of the Interior are located thousands of miles 
away from the land and people that their decision will affect.
    For example, the Bureau of Land Management oversees nearly 385,000 
miles of public lands; 99 percent of this land is in western states and 
Alaska. Why should these lands continue to be managed by decision 
makers inside this beltway?
    While several details of the reorganization plan remain 
unconfirmed, I am afraid, based on the title of today's hearing, the 
Majority merely intends to spend time criticizing and tearing down the 
plan. That said, I hope we don't miss the opportunity to truly explore 
how the Department of the Interior can evolve to better serve the 
American people, participate in a fruitful discussion.
    Historically, agency reorganizations have not been a partisan 
issue. Many different agencies and bureaus have attempted 
reorganization plans throughout this Nation's history by both 
Republican and Democratic administrations. There is much that could be 
done to transform the Department of the Interior to better address the 
challenges it will face in the 21st century, and I am glad we are 
holding the hearing today to explore those options, and I look forward 
to hearing testimony today.

    Thank you, Mr. Chairman.

                                 ______
                                 

    Mr. Cox. Thank you. I would like to introduce our 
witnesses.
    Mr. Scott Cameron is the Principal Deputy Assistant 
Secretary for Policy, Management and Budget at the Department 
of the Interior. Mr. Michael Bromwich is the Founder and 
Managing Principal of The Bromwich Group; after the Deepwater 
Horizon spill, Mr. Bromwich spent 18 months at the Department 
of the Interior, leading the reorganization of the Minerals 
Management Service. Ms. Jamie Rappaport Clark is the President 
and CEO of Defenders of Wildlife; from 1997 to 2001 she was the 
Director of the U.S. Fish and Wildlife Service. Mr. Harold 
Frazier is Chairman of the Cheyenne River Sioux Tribe, based in 
South Dakota; Chairman Frazier also serves as President of the 
Great Plains Tribal Chairmen's Association.
    Under Committee Rules, oral statements are limited to 5 
minutes, but your entire statement will appear in the hearing 
record.
    The lights in front of you will turn yellow when there is 1 
minute left, and then red when time is expired.
    After witnesses have testified, Members will be given the 
opportunity to ask questions.
    And with that, the Chair now recognizes Mr. Scott Cameron.

    STATEMENT OF SCOTT CAMERON, PRINCIPAL DEPUTY ASSISTANT 
SECRETARY FOR POLICY, MANAGEMENT AND BUDGET, U.S. DEPARTMENT OF 
                  THE INTERIOR, WASHINGTON, DC

    Mr. Cameron. Thank you, Mr. Chairman and Ranking Member 
Gohmert. I am delighted to be with you this morning to discuss 
the Department of the Interior's reorganization effort. I do 
have a few opening remarks, and I appreciate that my full 
written statement will be submitted for the record. Thank you 
for that.
    The Department's reorganization is in response to President 
Trump's 2017 Executive Order to reorganize the executive branch 
to better meet the needs of the American people in the 21st 
century. Our agency's reform plan highlights the need to 
modernize and plan for the next 100 years of land and water 
resource management.
    The first and very significant step we took toward 
reorganization was to create 12 unified regions that align most 
of our bureaus within shared geographic boundaries and, more 
importantly, shared geographic perspectives. After much input 
from the Department's career senior executive staff, Congress, 
governors, and external stakeholders, including consultations 
with Indian tribal leaders, the map was finalized and the 
unified regions took effect on August 22, 2018.
    Importantly, these new unified regional boundaries replaced 
a confusing array of 49 separate but overlapping regional 
boundaries among our 9 bureaus and offices.
    Reorganization makes it easier for the public and our 
partners to do business with us by, first, reducing the 
confusion that the many different bureau boundaries caused. The 
new structure enables improved coordination among Federal, 
state, and local agencies, and provides a structure for 
delegating more decision-making authority to regions to better 
serve the needs of our customers and partners, especially on 
matters affecting multiple bureaus.
    We will also create more opportunities for employee career 
advancement and movement across bureaus by promoting cross-
bureau collaborative work within each region. We will improve 
efficiency by sharing resources for common administrative 
services, such as information technology, human resources, and 
procurement. Indeed, we are in the process of receiving and 
analyzing three independent contracts to evaluate those 
management functions of the Department.
    After the unified regions were established we asked current 
bureau career executive leaders in the 12 regions to form 
regional executive committees and to select one of their peers 
as a Regional Facilitator. The Regional Facilitator temporarily 
serves as a central point of contact in each of the unified 
regions. The members of the 12 regional executive committees 
are responsible for sharing information and exploring how to 
work with each other more closely on programmatic and 
administrative support teams within their unified regions.
    We have also proposed moving elements of the Bureau of Land 
Management and the U.S. Geological Survey's headquarters 
operations west to bring them closer to the public that they 
interact with most frequently.
    As a result of the reorganization, the Department is better 
positioned to accomplish our mission and serve the needs of 
your constituents. Our staff will be able to do their jobs 
better as we increase our ability to share knowledge and 
resources across our bureaus. We will reduce risks to the 
organization and the confusion that is introduced through 
inconsistent policies for things like cyber security, 
acquisition, and human resource management.
    We are proceeding deliberately and intentionally on all 
aspects of reorganization. We will develop new performance 
measures to evaluate our success and return on investment. We 
will consider results over time and on a regional basis to 
determine our success and to identify areas where we still need 
to improve.
    The key here is flexibility. We are looking for an approach 
that will allow us to fine-tune our management strategies from 
region to region, reflecting the local needs of the people we 
serve in the region.
    I look forward to answering your questions and to working 
with the Committee to implement the Department's vision for the 
reorganization and modernization. Thank you for the opportunity 
to testify this morning.

    [The prepared statement of Mr. Cameron follows:]
    Prepared Statement of Scott Cameron, Principal Deputy Assistant 
              Secretary for Policy, Management, and Budget
                    U.S. Department of the Interior
    Chairman Cox, Ranking Member Gohmert, and members of the 
Subcommittee, I am pleased to appear before you today to discuss the 
Department of the Interior's reorganization.
    President Trump's Executive Order 13781, Comprehensive Plan for 
Reorganizing the Executive Branch, challenged all Departments and 
Agencies to reorganize to better meet the needs of the American people.
    The Department welcomed the opportunity to thoughtfully reorganize, 
as our structure and functions have not fundamentally changed in half a 
century. Our goal was to increase inter-bureau collaboration and 
improve interoperability across the Department.
    We therefore responded to the White House direction by crafting a 
transformational vision that more effectively delivers citizen service 
and enables us to perform our work more efficiently. The Department's 
reorganization is driven by an imperative to improve inter-bureau 
coordination, shift resources to front line activities that interact 
with the public, bring decision makers closer to those who are affected 
by our decisions, and leverage technology to drive management 
improvements across a wide variety of administrative services for the 
benefit of our employees and the people they serve. The first and very 
significant step to realizing this vision was the designation of 12 
unified regions that align most of our bureaus to shared geographic 
boundaries and, more importantly, shared geographic perspectives.
    The Department of the Interior was established 170 years ago. Like 
other government agencies, we must evolve to capitalize on new 
opportunities, address modem threats, and meet the needs of a 21st 
century citizenry.
    Over many decades, new bureaus were established on an ad hoc basis, 
each with unique geographic boundaries. This resulted in a complicated 
map of 49 regional boundaries among eight bureaus. Bureau regional 
leadership quite naturally, but not optimally, focused inwardly within 
their own regional boundaries. This limited perspective inhibited a 
shared understanding of perspectives of regional stakeholders whose 
needs span multiple bureaus. Opportunities to share administrative 
capacity across bureaus were difficult to recognize and implement. 
Members of the public were frustrated at the pace of decision making by 
bureaus that were not working together. In more recent times, physical 
and cybersecurity challenges have increasingly become threats to our 
employees and visitors, and the facilities, data, lands, and water 
resources we manage.
    The Department's reorganization will improve coordination and 
collaboration among our bureaus and increase our efficiency by making 
it easier and more natural to consider the sharing of administrative 
services across bureaus at the regional, multiregional, and even the 
national levels. We will find creative ways to streamline and 
standardize administrative processes and conduct the business of the 
Department in the smartest ways possible, particularly in the areas of 
information technology, acquisition/procurement and human resources. We 
owe it to our employees to provide them with the modern tools and 
resources they deserve in their professional lives, and quite frankly 
have come to expect as routine in their personal lives.
    The establishment of shared regional geographic boundaries 
simplifies how people interact with the Department, for our own 
employees, for state, local, and tribal governments, and for the 
public. Establishment of the unified regional boundaries across bureaus 
is the cornerstone for reforming the Department's service delivery to 
the public. Within each unified region, bureaus will focus their work 
on the same resources and constituents, and this common view will 
naturally lead to improved coordination across the bureaus. For the 
public, fewer regions makes it easier to do business with the 
Department, particularly for projects or issues requiring interactions 
across several bureaus. For our diverse mission, the move promotes 
inter-bureau collaboration, joint problem-solving, and mutual 
assistance.
    Perhaps most importantly, operating under common Department 
regional boundaries provides certainty for our external customers. By 
putting more emphasis on shared geography and inter-bureau coordination 
we are making it more realistic for our 70,000 employees to pursue 
cross-training outside their home bureau. Closer ties to sister bureaus 
at a regional level also makes it more realistic for our employees to 
consider career advancement opportunities in a sister bureau. Our goals 
are both aggressive and attainable. We will increase the efficiency, 
effectiveness, and accountability of how the Department serves our 
internal and external stakeholders while reducing confusion, risk, and 
duplication.
    The Department's unified regions are rooted in science and focused 
on watersheds and ecosystems. To get to the final boundaries, the 
Department held discussions with senior leaders in the Department and 
the bureaus, and we engaged our field employees, tribes, states, 
environmental groups, and our many other pa1tners and stakeholders. We 
hosted 8 listening sessions for our employees to provide forums for 
them to hear from, and talk directly to, Departmental officials about 
the reorganization and proposed regional boundaries.
    We conducted extensive tribal consultation, both formal and 
informal. These conversations included 11 formal consultation sessions 
and an additional 7 listening sessions at tribal offices and 
facilities, large gatherings, and other venues. We posted transcripts 
of all 18 sessions we conducted. In addition, 32 individuals or groups 
submitted comments in response to the tribal listening sessions. The 
feedback gathered from the tribal consultation s revealed a preference 
for the bureaus serving Indian Country to retain their current 
structure rather than becoming part of the unified regions. We 
respected that feedback, and as a result, the Bureau of Indian Affairs, 
the Bureau of Indian Education, and the Office of the Special Trustee 
for American Indians have not realigned their regional field structure 
to the new unified regions.
    Over a period of almost 2 years, Department of the Interior 
officials also met repeatedly with a wide variety of constituents, 
including state, local and tribal government elected and appointed 
officials; Congress; organizations such as the Western Governors' 
Association and the Missouri River Basin Interagency Roundtable; 
nonprofit groups; and bureau-specific cooperating organizations such as 
the National Parks Conservation Association.
    On May 16, 2018, then-Secretary Zinke hosted a Conservation 
Roundtable the purpose of which was to engage in robust conversation 
about reorganization, among other shared priorities, with non-
government conservation organizations. Participants at the roundtable 
represented such organizations as the Association of Fish and Wildlife 
Agencies, the National Audubon Society, the Congressional Sportsmen's 
Foundation, Delta Waterfowl, The Nature Conservancy, Pheasants Forever, 
and the Teddy Roosevelt Conservation Partnership.
    We also established a Reorganization Website and posted the unified 
region maps, answers to ``frequently asked questions,'' and status 
updates of the reorganization effort. This website is still active and 
provides two ways of submitting a question, comment or suggestion to 
the Department about the reorganization. We respond individually to all 
questions and comments received. We listened to everyone who provided 
input, and that input helped to shape the Department's ultimate 
reorganization decisions on the unified regions in the summer of 2018.
    Accomplishments to date include the following: after working 
closely with stakeholders and Congress, the unified regions map was 
finalized on August 22, 2018. Based on feedback from state governors, 
state boundaries were generally followed for the unified region 
boundaries with three exceptions where there were over-riding water 
resource issues that justified a deviation from the norm (along the 
Arizona-Nevada-California borders; the California-Oregon border; and 
the Montana-Idaho border). We also made a commitment to governors that 
the roles of the Bureau of Land Management State Directors would 
continue. This month we revised our Departmental Manual for each of the 
affected bureaus to reflect the existence of the unified regions. Those 
revisions have been approved and are undergoing the final codification 
process.
    After finalizing the unified regional map, we identified the 
current bureau career executive leaders in the 12 regions, asked them 
to form an executive committee in each unified region, and to select 
one of their peers as a Regional Facilitator. The Regional Facilitator 
temporarily serves as a central point of contact in the unified 
regions. The members of the 12 regional executive committees are 
responsible for sharing information and exploring how to work with each 
other more closely on programmatic and administrative support teams 
within their unified regions. The Regional Facilitators participate on 
regular calls among their group and their various regional teams; and 
weekly calls are scheduled to communicate with the Department.
    We are currently exploring what the permanent role might be for an 
individual designated as an Interior Regional Director within a unified 
region. This person would have a role in convening his or her 
colleagues on the regional executive committee and managing issues of 
mutual concern. It is worth pointing out that the role of Interior 
Regional Director would be established in such a way as to not disrupt 
existing bureau statutory authorities or impede communications between 
a regional bureau executive and the headquarters leadership of that 
bureau. In addition, we are currently examining how a provision in the 
Departmental Manual that dates back to the Carter administration and 
provides for the role of a Field Special Assistant might relate to what 
we have more recently envisioned as an Interior Regional Director.
    With the unified regions in place, and Congress having appropriated 
$17.5 million in Fiscal Year 2019 for the reorganization, we are now 
focused on how best to advance the management of the Department's vast 
and diverse responsibilities within the new regional structure. A wide 
variety of administrative tasks are necessary to fully operationalize 
the new regional boundaries, such as modifications to our financial 
management and property systems, and appropriately coding employee 
position descriptions to reflect their association with the new unified 
regions. These changes will take time, but will enable us to better 
plan, organize, manage, and report on activities on a multi-bureau 
basis for each unified region.
    To better capitalize on shared administrative services, we will 
leverage three independent external assessments that examine the 
operating practices, especially the effectiveness and efficiencies, of 
three administrative functions: human resources management, acquisition 
of goods and services, and information technology management. We 
believe that the resulting administrative reforms will improve and make 
our internal administrative operations more cost-efficient, enabling us 
to better invest in the Department's citizen-facing services. By 
resolving duplicative and unnecessarily cumbersome administrative 
processes, our employees and the Department's customers will save 
precious time in completing routine administrative actions. We received 
final reports on the assessments of information technology and 
acquisitions, and are now beginning to implement priority 
recommendations. The human resources assessment will be complete in 
September.
    In addition to improving internal and external communication and 
decision making through the unified regions, and reforming 
administrative operations to better serve the American public, there is 
a third dimension to our reorganization initiative. In order to better 
serve our customers and partners, we will move headquarters elements of 
two of our bureaus closer to the people affected by their decisions. 
Citizens always benefit when decisions are made by those who are most 
familiar with the issue at hand. This is why a key component of 
reorganization is moving elements of headquarters operations of two 
bureaus--the Bureau of Land Management and the U.S. Geological Survey--
to the western United States, where the preponderance of these bureau 
assets are located and bureau dollars expended, to better serve our 
customers.
    In 2019, we plan to relocate a very few headquarters elements of 
BLM and USGS to the West. Currently, we are actively exploring possible 
locations for a future headquarters location for BLM. We hope to make a 
decision on a city later this fiscal year. BLM plans to fill certain 
vacant headquarters positions and move a small number of employees to 
the West--approximately 40 vacant BLM positions or employees are likely 
to be relocated in FY 2019. This number represents approximately 10 
percent of the BLM headquarters work force. BLM intends to ask 
employees to volunteer, rather than forcing people to move.
    For its part, USGS' relocation is focused on the Denver, Colorado 
metropolitan area, where the bureau already has a significant presence 
and significant scientific partners in nearby universities. As a 
practical matter, the USGS FY 2019 funding for reorganization would not 
enable them to move many employees this year. In neither case have we 
made decisions that have committed ourselves legally or financially. As 
required by the Appropriations Committee, we will report on our plans 
prior to obligating the FY 2019 reorganization funding provided by 
Congress.
    We are proceeding with reorganization deliberately and 
intentionally. It is important to note that improved citizen service is 
the driver behind our reorganization. While we have reasonable 
expectations that a number of our reorganization actions will 
demonstrate savings in dollars and cents, we hope the Committee will 
agree with us that faster and smarter decision making by the 
Department, and decisions that are more fully informed by local 
conditions on the ground represent very real value for the American 
people, even if it is difficult to quantify these benefits in a 
traditional cost-benefit analysis.
    Bureaus and offices have already begun to work across 
organizational lines to identify ways to maximize the benefits of the 
new regions. The Regional Facilitators and their executive committees 
continue to identify best-practices for collaborative efforts, and 
specific needs for improving inter-operability across shared services 
and in the functional areas of collaborative conservation, recreation, 
and permitting. These groups have found their collaborative meetings to 
be highly productive and informative.
    As a result of these ongoing efforts, we are re-examining some of 
the Department's common business operations to leverage consistent best 
practices across Interior. In 2020, the budget requests $27.6 million 
to continue implementing the reorganization with three areas of focus: 
Implementation of the Unified Regions ($12.1 million), Relocation and 
Regional Stand Up ($10.5 million) and Modernizing Interior's Business 
($5.0 million).
    Through reorganization, the Department will be better positioned to 
serve our mission and address the needs of the American public. 
Regional bureau executives will be empowered to work directly with each 
other to proactively address common issues. Fewer decisions will be 
referred to Washington DC, and those that are referred to the Secretary 
will be more narrowly and clearly defined because of the prior inter-
bureau coordination at the regional level. This joint approach to 
problem solving and increased coordination at lower levels of the 
organizational structure, grounded in common regions, will reduce 
timelines for decisions, allow senior executives to better focus their 
attention where it is most needed, and facilitate increased 
collaboration and information sharing across DOI bureaus.
    Each unified region is unique, with varying levels of Interior 
staff, public interest, and types of resources to be managed. The 
unified regions will not be administered with a one-size-fits-all 
approach. Through increased shared servicing of information management 
and technology, procurement, and human resources functions across the 
Department, we will enhance the foundation for increased inter-bureau 
collaboration and coordination and better invest in our citizen-facing 
missions.
    Increased standardization in our administrative business processes 
will allow the Department to work more efficiently and effectively. We 
will be better positioned to take advantage of economies of scale, our 
staff will have increased capacity to share knowledge and resources 
across bureaus, and we will reduce risks to the organization that are 
introduced through inconsistent policies for cybersecurity, purchasing, 
and human resource management.
    The Department looks forward to working with this Committee to 
collectively enhance services to the American people. I am happy to 
take your questions at this time.

                                 ______
                                 

  Questions Submitted for the Record to the Honorable Scott Cameron, 
Principal Deputy Assistant Secretary for Policy, Management and Budget, 
                    U.S. Department of the Interior
Mr. Cameron did not submit responses to the Committee by the 
appropriate deadline for inclusion in the printed record.

                    Questions Submitted by Rep. Cox

    Question 1. During the hearing, Mr. Cameron testified that DOI was 
preparing a response to this Committee's April 10, 2019 request for the 
document that was e-mailed to Denise Flanagan on September 12, 2017 and 
included as an attachment entitled ``Agency Reform Plan-
Final.9.12.17.pdf.'' Committee staff asked that this document be 
prioritized for production.

    1a. When will DOI produce this document?

    1b. How many political appointees are reviewing this document 
before you send it to me?

    1c. Who are they and what are their titles?

    1d. I would like a date by which leadership will send a new e-mail 
reversing this directive. Please provide a copy of that e-mail to my 
Committee staff the day it sent.

                  Questions Submitted by Rep. Grijalva

    Question 1. During the hearing, Mr. Cameron was unable to answer 
questions related to an e-mail chain sent from career staff stating 
that documents to all Senators and me were directed to be bottlenecked 
through two political appointees handling nominations. I did not vote 
on Secretary Bernhardt's nomination. Please provide answers to the 
following:

    1a. Why was I singled out?

    1b. Which political appointee or appointees gave this direction?

                   Questions Submitted by Rep. Gosar

    Question 1. What is the Interior Department doing to reorganize its 
geospatial activities, in light of the recent GAO reports, and 
enactment of the Geospatial Data Act? Specifically, are you familiar 
with the Battenberg Report and do you see any value in consolidating 
the dispirit surveying, mapping and geospatial activities across the 
Department?

    Question 2. In 2005, Interior Secretary Gale Norton testified 
before the House Interior Appropriations Subcommittee, ``The Department 
currently uses 26 different financial management systems and over 100 
different property systems. Employees must enter procurement 
transactions multiple times in different systems so that the data are 
captured in real property inventories, financial systems, and 
acquisition systems. This fractured approach is both costly and 
burdensome to manage.'' What has changed in the last 14 years? What 
improvements have been implemented? Are there still over 100 different 
property systems? How has the Department reorganized, or how does it 
plan to reorganize, to eliminate this duplication? Today, with computer 
mapping and geographic information systems, or GIS, there is the 
ability to ``map it once, use it many times.'' To what extent has that 
goal been reached with regard to property systems and a current, 
accurate, multipurpose land inventory or what are your plans to 
eliminate such duplication and lack of coordination?

    Question 3. President Bush issued Executive Order 13327: Federal 
Real Property Asset Management on February 4, 2004. While that 
Executive Order exempted ``national forest, national park, or national 
wildlife refuge purposes except for improvements on those lands,'' it 
did include Section 7, which stated: ``Public Lands. In order to ensure 
that federally-owned lands, other than the real property covered by 
this order, are managed in the most effective and economic manner, the 
Departments of Agriculture and the Interior shall take such steps as 
are appropriate to improve their management of public lands and 
National Forest System lands and shall develop appropriate legislative 
proposals necessary to facilitate that result.'' What steps has the 
Departments of Agriculture and the Interior taken pursuant to Executive 
Order 13327, particularly with regard to an inventory of land owned by 
the Federal Government?

    Question 4. Are public lands of BLM and National Forest System 
lands included in the Federal Real Property Profile, the database 
required by the Federal Assets Sale and Transfer Act (FASTA) of 2016, 
(P.L. 114-287) and the ``Federal Property Management Reform Act'' (P.L. 
114-318)?

    Question 5. Why is the Reorganization good for taxpayers and how 
will it improve efficiencies within the Department?

    Question 6. What proposals have been developed by the Departments 
of Agriculture and the Interior, pursuant to Executive Order 13327, 
under the Bush, Obama or Trump administrations with regard to real 
property asset management on public lands and National Forest systems 
lands generally, and with regard to an inventory of those lands in 
particular?

    Question 7. Section 201 of the Federal Land Policy and Management 
Act (FLPMA) requires the BLM to maintain on a continuing basis an 
inventory of all public lands and their resources and other values. 
Section 202 of FLPMA requires BLM to rely on resource inventories in 
the development and revision of land use plans. Does BLM have a 
current, accurate inventory of all public lands? Is it one, 
consolidated inventory, or is a dispersed series of files and records? 
Is the inventory digital? Is it on the web? Does the public have access 
to this inventory? Is it searchable?

                                 ______
                                 

    Mr. Cox. Thank you so much, Mr. Cameron.
    The Chair now recognizes Chairman Harold Frazier.

  STATEMENT OF HAROLD FRAZIER, CHAIRMAN, CHEYENNE RIVER SIOUX 
                TRIBE, EAGLE BUTTE, SOUTH DAKOTA

    Mr. Frazier. Thank you, Chairman. I am honored to be here 
today, and I thank you for allowing me the time to address you 
and your Committee.
    When this reorganization happened, the tribes in the Great 
Plains area, and I am sure throughout the United States, were 
never properly consulted. When they came to the Great Plains 
region, we were given a picture of a map. That is all we were 
given. We weren't given any plans of the purpose of how or why 
this change is needed, or how it is going to benefit our 
people. It was never done. That is all we were given.
    I have been in office going on my fourth term. And one of 
the things I have learned is that every reorganization on 
behalf of Indian people has never worked. I will give you an 
example: the Bureau of Indian Education.
    They restructured, they created a new agency. But one of 
the things they didn't do is take all the functions from the 
BIA, or transfer any of them. And what that caused is no 
personnel at our schools. Right now at Cheyenne Eagle Butte 
High School, we haven't had a math teacher in 5 years.
    I went to a meeting several weeks back and I was told that 
in February--or, no, this fall of 2018 the BIE has only filled 
23 percent of positions. Today, they are at 43 percent, so we 
question that. Where is that money? If they were allocated 100 
percent for salaries, where is that money? Is that money going 
to go to fund this reorganization? Is this money coming off the 
backs of our children, their future that is going to pay for 
this reorganization that will never benefit Indian people, or 
will never work?
    We are always left behind as Indian people. We are not 
rocks. We are not trees. We are human beings. We live and 
breathe, just as every American in this country.
    If there is going to be a reorganization, one of the things 
that I think would work is it should come from a grassroots 
level up. Instead, many times it comes from Washington, it 
comes down, and they have no idea, no clue of what is happening 
at the local level. And that is something that I think has 
always failed.
    Today, we feel that we are being abandoned by the Federal 
Government. We have big issues of roads, no infrastructure. But 
yet the BIA or nobody is there to help us.
    We just got through some flooding that damaged a lot of our 
roads on our reservation. One morning I got a call that we had 
to shut another road down. And I couldn't think of anybody to 
call, because everybody that I have talked to has never come 
through for us. So, we truly feel that we are abandoned today.
    And, you know, we have treaties with the Federal 
Government. We are sovereigns. We need to be treated as such. 
Right now, we haven't had a permanent superintendent at our 
agency for the past 4 or 5 years. We rotate our area directors, 
so everything that is happening today is not working for our 
people. It is just a waste of time and money.
    If there is truly going to be reorganization, then we 
truly, as Indian people, need to be consulted. We need to be 
involved because that is our lives. Our people's lives are at 
stake. We need to know and dictate where our future is going to 
take us. A lot of times we are just ignored.
    And like I mentioned earlier, when they come to Rapid City 
with this map, and it was my turn to talk, I walked by them and 
I faced the wall of the building and I talked to that wall, 
because that is the way we are treated by the BIA and by the 
Federal Government. We have no voice, we have nothing.
    But yet we were here first. You know, this is our country. 
This is our home. From the beginning of time we have always 
lived in this country and will never leave. We have nowhere 
else to go.
    Thank you for allowing me the time, and thank you for 
allowing me to be here.

    [The prepared statement of Mr. Frazier follows:]
        Prepared Statement of Hon. Harold C. Frazier, Chairman,
                       Cheyenne River Sioux Tribe
    Good Morning. Chairman Grijalva, Ranking Member Bishop, and members 
of the Committee. My name is Harold Frazier. I am Chairman of the 
Cheyenne River Sioux Tribe of South Dakota. Our Tribe has approximately 
21,000 tribal members. The Cheyenne River Indian Reservation in north-
central South Dakota is approximately 2.8 million acres, 135 miles east 
to west and 65 miles north to south, and our territory is roughly the 
size of the state of Connecticut.

    I also serve as Chairman of the Great Plains Tribal Chairmen's 
Association, a federally-recognized intertribal corporation, organized 
under Section 17 of the Indian Reorganization Act to advocate for our 
16 Indian Nations and Tribes of the Great Plains Region.

    Generally, our Indian Nations and Tribes have significant land 
bases, and even our smaller Tribes are large by nationwide standards. 
Our Great Plains Nations and Tribes operate BIE and tribal schools, IHS 
health clinics and hospitals, BIA and tribal police, fire and EMT 
services, tribal courts, cultural centers, general assistance, elderly 
nutrition, early childhood programs, economic development projects, 
utilities, water, sewer and sanitation programs. Our tribal governments 
work to ensure that our Indian lands and reservations serve our people 
as the permanent, livable homes envisioned in treaties.
              the interior reorganization is deeply flawed
    Our treaties, statutes, executive orders, and Department 
regulations require consultation and coordination with Indian nations 
on issues that concern self-government, treaty rights, and the Federal 
trust responsibility. See Executive Order 13175 (2000); 25 CFR Part 
900. Interior completely failed in its duty to consult Indian nations 
in an informed manner concerning the impacts on our most basic 
governmental services.

    Interior came to our Indian Nations with an idea that was not 
thought through. To reorganize Interior, the Secretary started with the 
flawed premise that one Federal official is the same as another, 
regardless of qualifications, background, and training, regardless of 
the different Agency missions and operations. No plan was presented--
just a ``river basin'' map, two or three Power Point slides, and 
slogans not backed up by facts. ``Interior Regional Offices,'' ``100 
year plan,'' ``streamline,'' ``efficiency'' and ``no RIF.'' \1\
---------------------------------------------------------------------------
    \1\ The Department includes a number of different Bureaus and 
Agencies, which have diverse missions, including: Bureau of Indian 
Affairs (BIA), Bureau of Indian Education (BIE), Bureau of Land 
Management (BLM), U.S. Fish and Wildlife Service (USFS), Bureau of 
Ocean Energy Management, Bureau of Reclamation, Bureau of Safety and 
Environmental Enforcement, National Park Service, Office of Surface 
Mining Reclamation and Enforcement, and U.S. Geological Survey.

    In reality, it was a RIF: senior BIA staff have been encouraged to 
---------------------------------------------------------------------------
leave through extended details to remote locations.

    Unlike other DOI areas, Indian Nations represent people. We cannot 
afford to have our lives and services disrupted to pursue a Don Quixote 
adventure. We need real answers for real issues. We need real world 
funding to improve our peoples' living conditions.
      the secretary did not understand the needs of indian country

    When Secretary Zinke first came into office as the head of the 
Department of the Interior, he pledged to work with Indian Tribes as 
``equals.'' He said, ``sovereignty must mean something.'' Yet, he 
compared Interior to the military and told us that we had too many 
senior people nearing retirement age. ``We need more boots on the 
ground.''

    The BIA's senior executives were moved from post-to-post, region-
to-region. Our Great Plains Regional Director went on detail to other 
BIA Regions twice, for 6-month stints. Then he was permanently assigned 
as the BIA Regional Director for another Region, and a BIA Area 
Director from outside our Region was temporarily assigned to the Great 
Plains for 6 months, and then sent back home. Our Great Plains Indian 
Nations still do not have a permanent BIA Regional Director.

    For us, shifting the chairs throughout the Department was a waste 
of time. It meant lots of downtime, lost opportunities and failed 
decision making. Interior Headquarters in Washington called back 
authority from the existing BIA Regions concerning when to take Indian 
lands into trust and other issues--not a Regional approach. As a 
result, we can't get a clear answer from the BIA, a focused effort, or 
resources for crucial concerns.

    We were told in 2017 that Interior was going to reorganize ``for 
the next 100 years.'' The Secretary cited to the President's Executive 
Order 13781, entitled ``Comprehensive Plan for Reorganizing the 
Executive Branch.'' The stated goal was to improve the efficiency, 
effectiveness, and accountability of the executive branch.'' \2\ 
Interior did not have a plan--how efficient is that? Interior said that 
the Department's key functions were identified as: ``recreation, 
conservation, and permitting.'' That list does not pertain to Indian 
Country.
---------------------------------------------------------------------------
    \2\ With 9 Bureaus in 61 Regions, Interior sought to consolidate 
into 12 regions based upon watershed boundaries. By unifying the 
disparate agency regions, Interior sought to ``streamline'' and save 
resources. Each Interior Regional Director (IRD) would report directly 
to the Deputy Secretary, the focus was on recreation, permitting, and 
conservation, and each IRD position would rotate among the Bureaus and 
Agencies. So, for 2 out of 10 years, our BIA Regional Director would be 
as the IRD, if we participated in the Reorganization.

    At GPTCA, we were very concerned that the Interior Reorganization 
process had been started with no real plan, no real dialogue with 
Indian Nations, and no understanding of the need for increased funding 
for the BIA, BIE and Office of Special Trustee. Interior Reorganization 
documents had been drafted without the input of the BIA, BIE and Office 
of Special Trustee. Interior did not address Indian issues and did not 
prioritize Indian people. Interior was determined to reorganize despite 
concerns. Against this background, it would have been irresponsible for 
---------------------------------------------------------------------------
us to participate. We said, No.

    In August 2018, Interior announced that the new Interior Regions 
would apply to all of the Bureaus and Agencies, except BIA, BIE and 
Office of Special Trustee. We were told that if Indian Tribes ``opted-
out'' of the Interior Reorganization, there would be no further need to 
consult with us on the Reorganization.

    The Federal Times Reports that the Interior Reorganization plan 
``would assign efforts made by Department of the Interior bureaus--such 
as the National Park Service and U.S. Fish and Wildlife Service--into 
regions determined by watersheds, wildlife corridors, trail systems and 
state boundaries to better coordinate agency efforts on a local scale . 
. .'' ``[W]e will take actions to align DOI into the 12 unified 
regional boundaries. Bureau regional boundaries will transition from 
their current regional structures to participate in the new 12 unified 
regional boundaries,'' wrote Interior Deputy Director of External 
Affairs Tim Williams. Jessie Bur, Federal Times, ``Interior Finalizes 
Boundaries of 12 New Unified Regions,'' August 29, 2018.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


    Later, Interior updated its proposal to include 13 regions 
organized to improve:

    <bullet> Management of Ecosystems;

    <bullet> Interagency interaction and customer service; and

    <bullet> Share Interior's ``frame of reference'' for all Department 
            Executives.

               concerns about the interior reorganization
    We were asked to comment. From the Great Plains, our August 2018 
comments were:

        [The Reorganization] are goals for managing ``rocks and 
        trees,'' and ``watershed'' basins may work for USFS (Fish), NPS 
        (Parks), BOR (Water), and BLM (Land), but they do not work for 
        Native Nations and Native Peoples.

        Accordingly, GPTCA declines to support the DOI Reorganization 
        as it is presently conceptualized. Although no formal plan has 
        been laid out, the present concept for reorganization would 
        subject Indian Nations to catch-all Regional USFS-NPS-BOR-BLM 
        Offices with primary missions being recreation, conservation, 
        and permitting. We are Native Peoples, not ``trees and rocks.'' 
        We need a better approach. So, our Indian Nations call upon you 
        to establish DOI-Indian Nation Roundtable Discussions, chaired 
        by you and the White House, to discuss how to elevate, restore, 
        fund and empower Native Nations in our government-to-
        government, Nation-to-Nation relationship with the United 
        States . . ..

        To be sure, as Native Nations, we must be consulted concerning 
        the reorganization of other Interior Agencies and Bureaus, but 
        we must decline the Secretary's Offer to be consolidated with 
        these agencies.

        We reject the concept of consolidating ASIA, BIA, BIE, OST and 
        other Indian agencies under the umbrella of a unitary ``rocks 
        and trees'' Regional Director.

        NATION-TO-NATION CONSULTATION--Our treaties, acknowledge the 
        sovereignty of our Indian Nations and Tribes as Nations vested 
        with the power of war and peace. Through our treaties, we also 
        secured our right to ``permanent,'' ``livable'' homelands, and 
        the United States pledged to assist us with education, health 
        care, and housing . . ..

        In light of these fundamental principles, the Secretary of the 
        Interior should work on an entirely different process to 
        promote Indian Self-Determination with our Native Nations--
        Elevate, Restore, Fund, and Empower our Indian Nations. The 
        Secretary's process with our Native Nations should be based on 
        meaningful, informed Nation-to-Nation consultation and any 
        proposed reorganization should be based upon our mutual consent 
        to change--because that is required to respect Indian 
        Sovereignty, Self-Determination, and Treaty Rights . . ..

        ELEVATE THE ASSISTANT SECRETARY-INDIAN AFFAIRS (``ASIA'') TO 
        DEPUTY DEPARTMENT SECRETARY--The Secretary of the Interior 
        should consult with our Indian Nations concerning the elevation 
        of the ASIA to the level of the Deputy Secretary of the 
        Department of the Interior for Indian Affairs. The Deputy 
        Secretary of the Department for Indian Affairs should work 
        directly with the Secretary, the White House, and the Congress 
        . . .. There should be no changes or elimination of our BIA 
        Regional Offices without our prior consent. We do not agree to 
        a merger of our BIA Regional Offices into generic ``rocks and 
        trees'' offices--our BIA offices, their authorities, and their 
        staff must be available in the future for direct inclusion in 
        Self-Determination contracting with our Indian Nations. In 
        addition, the Secretary should re-establish the Office of 
        American Indian Trust to ensure that the coordinate DOI 
        Agencies operate consistently with our Treaty Rights and the 
        Federal Trust Responsibility.

        RESTORE INDIAN SELF-DETERMINATION, TREATY RIGHTS AND THE 
        FEDERAL TRUST RESPONSIBILITY TO CORE DEPARTMENT MISSIONS--The 
        Secretary of the Interior should work with our Indian Nations 
        to enhance our Indian Self-Determination to provide the maximum 
        latitude for Indian Self-Determination--the primary decisions 
        in formulating our tribal government programs and services 
        should be made by our Indian Nations and Tribes.

        FUND THE DEPARTMENT'S TREATY AND TRUST RESPONSIBILITIES--Our 
        Indian programs were formerly viewed as mandatory programs 
        since they are required by treaty, but the Secretary of the 
        Interior has allowed our Indian programs to be classified as 
        ``discretionary'' spending, subjecting us to steep budget cuts 
        under sequester rules. The Secretary should seek to restore 
        Indian programs to ``mandatory'' spending status and to fully 
        fund our unmet needs for services.

        EMPOWER--Indian Nations should be respected as the primary 
        government authority over our Native homelands--that is the 
        self-government we reserved by treaty . . ..

        DOI-INDIAN NATIONS ROUNDTABLE DISCUSSIONS--To move forward to 
        improve the Department of the Interior and its operations in 
        Indian Country, the Secretary must work with the White House to 
        convene DOI-Indian Nations Roundtable Discussions--which the 
        White House and the Secretary must chair personally to make 
        real progress. The elected leaders of all Indian Nations should 
        be invited. The meeting should be a Nation-to-Nation dialogue 
        with any decisions based upon mutual consent, and with real 
        back and forth communication between the principals . . ..

The Great Plains Tribal Chairmen's Association did not receive a 
response.
          establish a new deputy secretary for indian nations
    It is time for the Secretary of the Interior to fundamentally 
change--prioritize Native Nation issues by establishing a Deputy 
Secretary for Indian Nations. GPTCA adopted a Resolution to that 
effect:

        BE IT FURTHER RESOLVED, that the GPTCA calls upon the Secretary 
        of the Interior to stop the BIA Reorganization . . . [until] an 
        agreement between the United States and our Indian Nations and 
        Tribes has been reached concerning the importance of the 
        following principles:

    <bullet> Honoring our Treaty Rights, including our Right to 
            Sovereignty, Self-Determination, and Self-Government;

    <bullet> Our Nation-to-Nation Relationship with the United States;

    <bullet> The Sanctity of our Indian trust lands and territory;

    <bullet> Our Rights to Economic Freedom and Liberty;

    <bullet> Federal Trust Responsibility Support for Inherent Rights 
            to Sovereignty, Self-Determination, and Self-Government; 
            and

    <bullet> The need to prevent DOI, BIA, BLM, BOR, and National Parks 
            Service interference with our Inherent Rights and Treaty 
            Rights . . ..

        BE IT FURTHER RESOLVED, that GPTCA calls upon the Secretary of 
        the Interior to establish a [new] co-equal . . . Deputy 
        Secretary to oversee the BIA, BIE, OST, OJS and other Indian 
        Affairs functions, and to re-establish the Office of American 
        Indian Trust within the Office of the Secretary; and

        BE IT FURTHER RESOLVED . . . the existing DOI Budget for Indian 
        Affairs must be increased and GPTCA calls upon the 
        Administration and Congress to fully fund our Indian Affairs 
        budgets; and

        BE IT FURTHER RESOLVED that the United States [must] . . . 
        protect and promote the interests of Tribal Nations . . . as 
        matters of paramount importance in any . . . Interior 
        reorganization effort; and

From the Great Plains, we took our issues to the National Congress of 
American Indians, and NCAI passed a resolution, DEN 18-027, which 
provides in part:

        ``NCAI calls upon the Secretary of the Interior to establish 
        the position of Deputy Secretary for Indian Affairs and to 
        collect all of the Indian offices and Bureaus under the 
        authority of the new Deputy Secretary . . ..

See also DEN 18-022.

    NCAI decries the so-called ``Thursday Night Massacre,'' when BIA 
Regional Directors were to remote locations around the country to work 
on issues or with Tribes that they had little familiarity with.'' Many 
BIA Regions, including Great Plains, have been impeded for months with 
Acting Regional Directors who are unfamiliar with our issues and our 
Tribes.

    NCAI concludes, ``This reorganization threatens to diminish the 
authority of BIA Regional Directors within Interior's overall structure 
and seeks to isolate the BIA from other agencies at Interior. This 
will, in turn, isolate and weaken the programs and services that those 
agencies provide Indian Country. NCAI reiterates our call to the 
Administration to halt the Interior and BIA reorganizations so it can 
assess their negative impacts on tribal communities, and then integrate 
tribal priorities into a revamped restructuring plan.''

    As discussed above, Interior officially declared that the BIA, BIE 
and Office of the Special Trustee were exempt from the Reorganization, 
but there are many jobs open and there is an unwritten policy of 
attrition:

        The Department has no plans to run a Reduction In Force (RIF). 
        The reorganization is intended to facilitate inter-bureau 
        coordination, training, and experience and will therefore 
        enhance employees' career development and provide job and 
        advancement opportunities across bureaus. As positions are 
        vacated through voluntary retirements or moves to new roles, 
        some of those positions may be filled in a different location.

Interior website FAQs About the DOI Reorganization.
interior did not consider indian nations and did not listen to congress
    Interior did not consider Indian Nations or Native peoples when 
they formulated the plan. Indian Nations are not ``land and water 
management.'' As Indian Nations, we always have difficulty working 
across agencies because the other Interior Bureaus and Agencies do not 
understand Indian Tribes. Yet, when we told Interior we did not want to 
reorganize, Interior stopped consulting us on the Department 
Reorganization.

    In 2016, Congress called for the creation of an Under Secretary for 
Indian Affairs to work across Bureau and Agency lines to promote 
interagency cooperation on Indian issues. Title III of Public Law 114-
178, the Indian Trust Asset Reform Act (ITARA) provides:

    <bullet> the Secretary of the Interior [may] establish an Under 
            Secretary for Indian Affairs who is to report directly to 
            the Secretary of the Interior and coordinate with the 
            Office of the Special Trustee for American Indians 
            (``OST'') to ensure an orderly transition of OST functions 
            to an agency or bureau within Interior;

    <bullet> Requires Interior to prepare a transition plan and 
            timetable for how identified OST functions might be moved 
            to other entities within the Department of the Interior;

    <bullet> Requires appraisals and valuations of Indian trust 
            property to be administered by a single administrative 
            entity within Interior; and

    <bullet> Requires Interior to establish minimum qualifications for 
            individuals to prepare appraisals and valuations of Indian 
            trust property and allow an appraisal or valuation by a 
            qualified person to be considered final without being 
            reviewed or approved by Interior.

Interior has not made any public move to implement this law.
the bia, bie and ihs do not honor the united states' treaty obligations
    The BIA has not honored the United States' treaty responsibilities. 
For example, our 1868 Sioux Nation Treaty and the Act of March 2, 1889 
provided that the United States will maintain an Indian Agency at our 
Reservation. Yet, in 2011, during heavy rains, the BIA abandoned our 
joint BIA Agency-Tribal Government Building when black mold grew in the 
walls after BIA roof repairs failed. The BIA secured its own rental 
offices but made no plans to rehabilitate our BIA Agency-Tribal 
Government Building, leaving the Cheyenne River Sioux Tribe to search 
for our own office spaces. We are now located in condemned school 
dormitories and catch-all offices around Eagle Butte, South Dakota. Our 
Tribal Government is fragmented, services are interrupted. Today, our 
joint BIA Agency-Tribal Government Building, which was built in the 
1960s when our Cheyenne River Sioux Tribe was ``relocated'' from rich 
bottom lands along the Missouri River to the high plains at Eagle 
Butte, South Dakota, remains an abandoned eye sore at the heart of our 
community--it stands as a monument to the BIA's abandonment of the 
Federal trust responsibility.

    The BIE has done away with our Agency Education Line Officer, 
leaving us with no reservation-wide Federal leadership on education. As 
a result, our joint BIE-Public High School, Cheyenne-Eagle Butte High 
School, has reached the end of its useful life after 60+ years of 
service, the BIE has not kept up on maintenance, so our school is not 
even ranked by the BIE for replacement. Our ^20 degree below zero high 
plains winter weather blows into the school rooms through the cracks in 
the building. Our Cheyenne River students need the immediate 
replacement of our school, so they can concentrate on learning rather 
than bundling up to fight the cold throughout the school day.

    The IHS is down-sizing. The IHS is in the process of 
decommissioning our Sioux San Hospital and replacing the Hospital with 
a Health Clinic. 20,000 Lakota-Nakota-Dakota people live in the Black 
Hills area, and Sioux San serves our Cheyenne River, Oglala and Rosebud 
Sioux Tribes with over 100,000 tribal members. We need decent health 
care, pre-natal, obstetrics, and post-natal care, surgery, therapy, 
good medicine--the same health care that the rest of America receives. 
Instead, we receive rationed health care, budget cuts as our service 
population grows far faster than the United States as a whole. Native 
American peoples and Tribes are growing. We have a strong future, and 
we need the United States to honor its treaty promises to provide 
education, health care, and other services.

    Our infrastructure is crumbling. The Army Corps of Engineers 
continues to operate the Oahe Reservoir and Power Plant, generating 
over 2 billion kilowatt hours annually--enough to power over 250,000 
homes. Yet, the Army Corps has not dredged Lake Oahe because the Corps 
allowed upstream mining operations to dump heavy metal and arsenic 
contaminated tailings into tributary rivers, polluting the Missouri 
River--our tribal drinking water source and the sole source of drinking 
water for thousands of neighboring farmers and ranchers. As a result, 
our rivers--the Moreau and the Cheyenne River and creeks are flooding, 
damaging communities and destroying roads, bridges and infrastructure. 
We need real help. Instead, BIA proposed 10 percent cuts for Indian 
programs. That's an abdication of the Federal trust responsibility and 
pure neglect of our treaty rights, lands, waters and natural resources.
original sovereigns: indians nations, the constitution and our treaties
    The Creator made our Lakota People, bringing our spirits down from 
among the stars where we dwelt with Wakan Tanka in the time before 
time. Our home is Dakota, the land of the Seven Council Fires of the 
Great Sioux Nation. Our Grandfathers and Grandmothers put their hearts 
and minds together to form our Nation for the general welfare of our 
People, and they exercised their inherent liberty in community to 
invest our Nation with sovereignty. For thousands of years before the 
coming of the United States of America, our Indian Nations and Tribes 
were independent sovereign Nations.

    During the Revolutionary War, the United States sought allies. In 
1778, the United States entered the first Indian treaty--the Treaty 
with the Delaware Nation, establishing a model of peace, friendship and 
Nation-to-Nation relations. The 1787 Northwest Ordinance pledged that 
``the utmost good faith shall be observed toward the Indians,'' and 
Indian ``liberty and property'' shall never be invaded. With this 
background, the Constitution established Indian affairs as an area of 
Federal responsibility.

    The Constitution of the United States acknowledges Indian Nations 
as prior sovereigns, with self-governing authority over our territory 
and our peoples in the Treaty and Supremacy Clauses. The Constitution's 
Commerce Clause establishes government-to-government relations among 
the United States and Indian Nations. The Constitution's Apportionment 
Clause and the 14th Amendment recognize that Native citizens--``Indians 
not taxed''--owe original allegiance to our Indian Nations, participate 
in tribal self-government, and are subject to tribal jurisdiction.

    In the 1803 Louisiana Purchase Treaty, the United States pledged to 
enter treaties with Indian Nations based upon ``mutual consent.'' In 
the 1805 Treaty with the Sioux, the United States came to Minnesota--
where the water reflects the clouds--and America sought Sioux Nation 
recognition of Federal sovereign authority over two small squares of 
land, so the new Nation could build a fort, establish trade and 
commerce, and our Dakota People reserved their inherent rights to hunt 
and fish the land. The United States promised peace and friendship.

    In the 1851 Treaty with the Sioux Nation, and others, the United 
States sought peace, friendship and safe passage across the respective 
territories of our Indian Nations. Our 1851 Treaty was recognized and 
our treaty rights and territory were affirmed by the 1854 Kansas-
Nebraska Act and the 1860 Dakota Territory Act. In 1866-1868, as gold 
miners and the Army began to invade our country, Chief Red Cloud and 
our Lakota People fought the Powder River War to defend our territory 
and our way of life.

    In the 1868 Treaty with the Sioux Nation, the United States sought 
peace and pledged its honor to keep the peace. For our part, the Sioux 
Nation reserved our original, inherent right to self-government, 
preserved and reserved our Sioux Nation territory as our ``permanent'' 
homeland, establishing that when our Lakota-Nakota-Dakota became U.S. 
citizens, we retained our treaty rights. As the Supreme Court 
recognized in Ex Parte Crow Dog, 109 U.S. 556, 568 (1883):

        The pledge to secure to these people, with whom the United 
        States was contracting as a distinct political body, an orderly 
        government, by appropriate legislation thereafter to be framed 
        and enacted, necessarily implies . . . that among the arts of 
        civilized life, which it was the very purpose of all these 
        arrangements to introduce and naturalize among them, was the 
        highest and best of all--that of self-government, the 
        regulation by themselves of their own domestic affairs, the 
        maintenance of order and peace among their own members by the 
        administration of their own laws and customs;

    Thus, the Article VI reservation of ``all rights'' to Sioux Nation 
citizens means that as ``Indians not taxed,'' we, as citizens of the 
Sioux Nation and the United States, have all our rights to maintain our 
connection to tribal property, our land and our Nation free from 
Federal or state taxation.

    We fought for our treaty protected lands and our inherent, 
inalienable rights to life, liberty and the pursuit of our traditional 
way of life. Sitting Bull, our Guardian of Freedom, said:

        What law have I broken? Is it wrong for me to love my own? Is 
        it wicked for me because my skin is red? Because I am Lakota? 
        Because I was born where my father lived? Because I would die 
        for my people and my country? God made me Lakota.

Acting on the orders of the Secretary's BIA Agent, the BIA Police shot 
Sitting Bull in the back, and the Calvary chased his people from their 
homes.

    Our People's defender Crazy Horse said: ``One does not sell the 
earth the people walk on . . .. We preferred our own way of living, and 
we were no expense to the Government.'' After the United States 
promised peace, he gave up his weapons and then the U.S. Army tried to 
take his freedom. When he refused to be jailed, two men held his arms 
and a soldier bayonetted Crazy Horse in the back.

    Our 1868 Sioux Nation Treaty expressly preserves our original, 
inherent liberty and self-government, and the Treaty provides that our 
Lakota People retain all of our treaty rights when we become citizens 
of the United States, including the right:

    <bullet> Self-Government;

    <bullet> Education;

    <bullet> Health Care;

    <bullet> Agriculture;

    <bullet> Economic Development;

    <bullet> Hunting and Fishing;

    <bullet> Land, Natural Resources, and Waters, and

    <bullet> Our Permanent Homeland.

We have always maintained our rights and we continue to maintain our 
rights today.
                               conclusion
    Whoever holds the office, the Secretary of the Interior should 
respect Indian Nations and Tribes as the original American sovereigns 
and understand that our Native peoples are working to make the Indian 
Self-Determination Policy a success. We are Native Peoples, not Rocks 
and Trees, or Oil and Gas Fields. Many of our Indian Nations are 
located on remote lands far from economic centers. Life is hard. 
Resources are scarce. We need a government-to-government partnership 
with the Federal Government to help us make our Indian lands, viable 
homelands.

    Our Indian kids need a fair chance at education. At Cheyenne River, 
our High School has not had a math teacher for 5 years! We need a new, 
modernized school because our school is over 60 years old. It is worn 
out.

    We need an Indian reservation road program that actually builds 
roads in Indian Country. We need repairs when our rivers flood. The BIA 
should step up. DOT should step up, and BIA should call on the Army 
Corps to step up.

    When Congress considers national Infrastructure, remember Indian 
Country. We do not have a match for Federal funding because our Indian 
lands are located in the Nation's poorest counties. We need roads, 
schools, hospitals, administrative buildings, housing, economic 
development, nursing homes and community centers.

    We need real solutions for real problems. We don't need Interior to 
waste $60 million on Reorganization.

                                 ______
                                 

    Mr. Cox. Thank you, Chairman Frazier.
    The Chair now recognizes Mr. Michael Bromwich.

STATEMENT OF MICHAEL BROMWICH, FOUNDER AND MANAGING PRINCIPAL, 
               THE BROMWICH GROUP, WASHINGTON, DC

    Mr. Bromwich. Thank you, Mr. Chairman, Chairman Grijalva, 
and Ranking Member Gohmert.
    I served in the Federal Government for a total of 14 years. 
Most recently, I served as the country's top offshore drilling 
regulator in the Department of the Interior, from June 2010 
through late 2011. My testimony will focus on the first 
principles that should guide a significant government 
reorganization, and how they were applied to the reorganization 
we undertook at Interior following the oil spill.
    First a bit of background. In late April 2010, the 
Deepwater Horizon rig was conducting exploratory drilling in 
the Macondo well in the Gulf of Mexico. The rig experienced a 
violent blowout that killed 11 people and injured many others. 
It was a human tragedy of major proportions, but also an 
enormous environmental tragedy.
    In early June 2010, I was asked by President Obama to lead 
the agency responsible for the oversight of offshore drilling, 
at the time known as the Minerals Management Service, or MMS. 
We took immediate steps to modify the rules governing offshore 
drilling, but we also looked at whether the government's 
organizational structure for managing it was the right fit for 
the risks that it posed.
    We ultimately concluded that it was not, but not before we 
developed a detailed understanding of the way the agency 
operated and the costs and benefits of changing that structure. 
The agency was responsible for three very different missions: 
collecting royalties and revenues for the offshore program; 
making balanced resource decisions; and developing and 
enforcing regulations governing offshore activities. These 
three missions conflicted with each other, and the history of 
the agency demonstrated that revenue collection was emphasized 
at the expense of the other missions.
    By the time I arrived at DOI 6 weeks after the initial 
explosion, discussions had already begun about reorganizing MMS 
to eliminate its structural conflicts. But I was given the 
discretion to decide whether or not to do it.
    I don't take reorganizations lightly. I have a bias against 
them. They are disruptive, expensive, frustrating, and they 
tend to depress morale. They create uncertainty and divert 
resources. They frequently fail to achieve their objectives.
    Reorganizations are too often undertaken for reasons of 
executive vanity. They are developed and implemented in haste, 
inadequately vetted, based on inadequate analysis and 
insufficient consultations with stakeholders, including the 
personnel responsible for implementing them. They are a way for 
a new executive or executive team to put their imprint on an 
organization, whether the changes make any sense or not. Those 
are bad reasons for undertaking a reorganization, but those are 
the reasons that many are undertaken.
    In the case of MMS, we became convinced that a 
reorganization was necessary and appropriate, but only after 
careful study and consideration of less disruptive 
alternatives. I want to emphasize that when we began the 
process there was no preordained outcome. We did not decide on 
the reorganization that was ultimately implemented and then 
work backward to justify it. Instead, we undertook a detailed 
process, together with outside consultants who were experts in 
organizational diagnosis and reorganizations. We considered a 
number of less sweeping changes, including changes to staffing 
levels, enhanced training, and other organizational tweaks.
    In the end, our analysis and discussions pointed to a broad 
reorganization, and my prepared statement goes into detail into 
the various steps we took during the process.
    Throughout the process we were extraordinarily open about 
what we were doing. We were open with the agency's personnel, 
with DOI, with the Congress, and with the public. We spoke 
frequently about what we were doing and why we were doing it. 
The broad contours and most of the specifics of the 
reorganization were embraced by Members of Congress of both 
parties.
    In the more than 7 years since the organization was 
completed, its wisdom has been demonstrated. I have just told 
in very abbreviated form the story of a rare species: a 
successful government reorganization. As I said at the outset, 
I know very few of the details of the proposed and far broader 
DOI organization that is the subject of this hearing, but I 
gather I am not alone, because the details of the 
reorganization have not been shared widely with agency 
personnel, the Congress, or the public, including local 
stakeholders, communities, and Native American tribes. That's a 
problem.
    I am aware of no internal or external studies of any kind 
that have made the affirmative case for the proposed DOI 
reorganization. I am aware of no analyses or studies that have 
presented the anticipated benefits of the reorganization and 
balanced them against anticipated costs.
    A number of questions should be asked about the proposed 
reorganizations, questions that I have detailed in my prepared 
statement. Without addressing those issues, it is hard for me 
to see how DOI gets the internal and external buy-in necessary 
to achieve long-term benefits from the proposed reorganization.
    Thank you very much for your time and attention, and I am 
happy to answer any of your questions.

    [The prepared statement of Mr. Bromwich follows:]
  Prepared Statement of Michael R. Bromwich, Managing Principal, The 
                             Bromwich Group
    Mr. Chairman, Ranking Member and members of the Committee, my name 
is Michael R. Bromwich. I served in the Federal Government for a total 
of 14 years, as a Federal prosecutor, special prosecutor and as the 
Inspector General for the Department of Justice. Most recently and most 
relevant to this hearing, my public sector career included serving as 
the country's top offshore drilling regulator in the Department of the 
Interior (``Interior,'' or ``DOI'') from June 2010 through late 2011.
    Over the last 20 years, as both a lawyer and consultant, I have 
dealt extensively with organizations dealing with change and reform--
both in the private sector, and with public agencies on the local, 
state, and Federal level. My views are based on that experience.
    I appreciate the opportunity to be here today to address issues 
related to the Department of the Interior's proposed reorganization. 
There is little detailed information about the proposed DOI 
reorganization in the public domain--thus, the title of this hearing--
and therefore my testimony will primarily address the principles, 
process, and implementation that should guide the thinking and actions 
of the personnel undertaking a significant government reorganization. 
We applied those principles to the important reorganization we 
undertook at Interior following the 2010 Gulf Oil Spill. I think that 
is a case study of a reorganization that was done the right way.
    First, a bit of background familiar to most of you. In late April 
2010, the Deepwater Horizon rig was conducting exploratory drilling in 
the Macondo well in the Gulf of Mexico. The rig experienced a violent 
blowout that killed 11 people working on the rig and injured many 
others. It was a human tragedy of major proportions. It was also an 
enormous environmental tragedy because the accident released more than 
3 million barrels of oil into the Gulf over the course of nearly 90 
days before the well was finally capped. Nine years later, the full 
extent of the environmental damage is still being determined through a 
broad range of scientific studies.
    In early June 2010, I was asked by President Obama to help deal 
with the crisis caused by the oil spill and its aftermath, and to lead 
the agency responsible for the oversight of offshore drilling--at the 
time known as the Minerals Management Service, or MMS. The task was 
two-fold: to help the Administration deal with the immediate crisis and 
its after-effects, and to undertake efforts to reduce the risks of 
future explosions and spills.
    To reduce those risks, we promptly adopted a set of tighter rules 
and requirements designed to raise the bar on safety for deepwater 
drilling, initially on an emergency and then on a permanent basis. But 
we also looked more broadly at whether the government's organizational 
structure for managing and regulating offshore drilling within DOI was 
well-suited to the challenges and risks posed by offshore drilling and 
production. We ultimately concluded that it was not, but not before we 
developed a detailed understanding of the way the agency operated, and 
the costs and benefits of changing that structure. We also had to deal 
with the fact that through no fault of its personnel, the agency was a 
victim of lost credibility because of mission confusion, structural 
conflicts of interest, a shortage of resources, and a misallocation of 
those resources.
    We were not discovering a new problem--the same structures had been 
in place for almost 30 years--but the spill focused long overdue 
attention on the relationship between agency structure and agency 
mission. Since its creation in 1982, MMS had been responsible for three 
related but distinct aspects of offshore exploration and production. 
First, it was responsible for collecting royalties and revenues for the 
offshore program, including from lease sales and oil and gas 
production. Second, it was responsible for making balanced resource 
decisions concerning where, when, and to what extent offshore regions 
should be available for exploration and production by oil and gas 
companies. Third, MMS was responsible for developing appropriate 
regulations governing offshore activity and enforcing those regulations 
to ensure that such operations were conducted as safely and responsibly 
as possible.
    On paper, these three missions had the potential to be in 
conflict--and in fact they were. Over time, the assessment and 
collection of money from lease sales and oil and gas production drove 
the priorities of the agency. The Federal Government's appetite for 
revenues and royalties shaped decisions that were consistently pro-
exploration and production. Little time and attention were devoted to 
developing appropriate regulations that kept pace with technological 
developments in offshore drilling. And even less attention was devoted 
to enforcing those regulations and holding companies and individuals 
accountable for violations.
    When the President's Oil Spill Commission interviewed the former 
directors of MMS following the 2010 spill, they were asked to identify 
their top priority when they managed MMS. Across MMS directors from 
administrations of both parties, their consistent answer: to maximize 
revenue for the Federal Treasury. Nor was that surprising, because 
offshore activity generated massive sums of revenue for the Federal 
Government--in many years second only to the individual income tax. But 
the priority given to generating revenue meant a bias in favor of 
development over environmental protection, and the virtual neglect of 
the agency's regulatory and enforcement functions.
    In the wake of the spill, the structure of MMS immediately began to 
receive the scrutiny that it deserved. The blame for Deepwater Horizon 
fell squarely on the shoulders of three companies who collaborated on 
drilling the Macondo well. Even so, leaders in the Administration, 
Congress, and industry began discussing ways to strengthen the ability 
of the Federal Government to regulate offshore drilling. By the time I 
arrived at DOI 6 weeks after the initial explosion, discussions had 
already begun about the possibility of reorganizing MMS to eliminate 
its structural conflicts. Secretary Ken Salazar was on record as 
favoring a restructuring. Even so, I was given the discretion to 
decide, after my team's own review and analysis, whether to undertake a 
reorganization.
    I do not take lightly reorganization proposals. Indeed, I have a 
bias against them. They are disruptive, expensive, frustrating--and 
tend to have an adverse effect on morale. They create uncertainty and 
divert resources from the mission. They frequently fail to achieve 
their objectives.
    In my experience, reorganizations are too often undertaken for 
reasons of executive vanity. They are frequently developed and 
implemented in haste, inadequately vetted, based on inadequate 
analysis, and insufficient consultations with stakeholders, including 
the personnel who will be responsible for implementing them. 
Reorganizations are a way for a new executive or team of executives to 
put their immediate imprint on an organization, whether the changes 
make management and organizational sense or not.
    Needless to say, those are bad reasons for undertaking a 
reorganization. Unfortunately, many reorganizations both in the public 
and private sectors are undertaken for such reasons. They are proposed 
and implemented to show energy, initiative and action--frequently in 
response to vague concerns about inefficiency, unresponsiveness, or 
failure to deliver expected services, but sometimes just so that a new 
executive or executive team can fly the banner of change. Without 
careful analysis of the problems being addressed, whether the solution 
of reorganization matches the problems that are being addressed, and 
how to mitigate the very real risk that the reorganization might make 
things worse, a reorganization can easily become a fool's errand and a 
destructive undertaking.
    In the case of MMS, we became convinced that a reorganization was 
necessary and appropriate, but only after careful study and 
consideration of less-disruptive alternatives. Our goals were clear: we 
wanted to improve the agency's ability to appropriately balance the 
risks and benefits of offshore exploration and production--to make 
balanced offshore resource development decisions; to enforce existing 
regulations, and develop new regulations, based on risk management 
principles; and to continue to generate revenue for the U.S. Treasury. 
But we looked for ways to generate revenue without sacrificing the need 
to arrive at balanced resource development decisions, and without 
starving the regulatory and enforcement missions of the agency, which 
had been the case in the past.
    I want to emphasize that when we began the process there was no 
pre-ordained outcome. We did not decide on the reorganization that was 
ultimately implemented and then work backward to justify it. Instead, 
we undertook a detailed fact-gathering and analytic process, together 
with outside consultants who were experts in organizational diagnosis 
and reorganizations. Because I was aware of the potential destructive 
impact on operations and organizational morale of a broad 
reorganization, we considered a number of less sweeping changes, 
including changes to staffing levels, training, and other 
organizational tweaks. We also examined closely the offshore regulatory 
regimes of other nations, including those of the United Kingdom and 
Norway, which underwent similar organizational reforms following their 
own offshore accidents, to see what we could learn from their 
experiences.

    Though we had no pre-determined destination, our analysis and 
consultation in the end pointed to a broad reorganization. However, we 
did not arrive at this decision until we had taken a number of 
important steps, including comprehensive fact-gathering and data 
collection, deep engagement with agency personnel, and extended 
qualitative and quantitative analysis. Only after those steps were 
completed did we conclude that we needed to fully separate the revenue 
collection, resource development, and regulatory and enforcement 
functions into three separate entities--ONRR, BOEM, and BSEE.

    The initial phase of our work, which lasted approximately 3 months, 
focused on extensive engagement with all agency personnel to obtain 
broad information and feedback. Together with our outside consultants, 
we visited the agency's field locations on multiple occasions, 
conducted extensive discussions with agency personnel, and collected 
and analyzed agency data.

    The second phase, which similarly took approximately 3 months, 
focused on developing strategic and organizational alternatives, 
soliciting responses and feedback from agency personnel, and conducting 
numerous working sessions that focused on those alternatives.

    The third phase, which also took several months, centered on 
developing a final reorganization plan. That included obtaining sign-
off from within the agency and more broadly from within DOI. It also 
included socializing the proposed reorganization with the field, so 
that field personnel knew the specifics of the plan, could contribute 
suggestions as the plan was being finalized, and would more readily 
accept the changes that were ultimately agreed upon.

    Throughout this process, we were extraordinarily open about what we 
were doing. We were open with the agency's personnel, with DOI, with 
the Congress, and with the public. We spoke frequently about what we 
were doing and why we were doing it. We consistently engaged with 
internal and external stakeholders--for example, I personally spoke 
with industry groups and testified about the specifics of the agency's 
reorganization plans multiple times before this Committee and other 
congressional committees. That engagement process was key to the 
ultimate broad acceptance of the reorganization.

    Let me focus briefly and more specifically on engagement with the 
personnel of the agency because in my judgment that is a key to the 
success or failure of a reorganization. From the outset, agency 
leadership and our outside consultants conducted in-person visits with 
the agency's field offices. We introduced our outside consultants, who 
returned to the field on numerous occasions. We openly discussed the 
purposes and goals of the organizational review. We met frequently with 
members of regional leadership, as well as line personnel, to better 
understand the nature of their roles, the challenges they faced, and 
the changes they believed would enhance their ability to perform their 
jobs.

    As the prospect of change became more real, the anxieties of field 
and headquarters personnel increased. That was especially true for 
personnel in the field, especially in the Gulf where most of the 
agency's personnel were located. A combination of agency leadership and 
outside consultants made themselves available to answer questions and 
address concerns on a continuing basis. We provided reassurances that 
the reorganization was not a cover for people losing their jobs or 
increasing their workloads. Those open lines of communication 
contributed to the ultimate acceptance and buy-in by agency personnel. 
Even though the final decisions were being made in Washington, DC, we 
knew that we needed to fully involve personnel at all levels of the 
agency in the discussions about the shape of the new agencies at every 
stage of the process--and we did so.

    We initially split off the revenue collection function, but it took 
more than a full year to complete the implementation and create BOEM 
and BSEE as separate, standalone agencies. Not everyone was pleased 
that we consulted so widely and that the process took so long. We dealt 
with some impatience, including from the White House, but we refused to 
accelerate the process. We knew the complexities we were dealing with, 
the interdependencies between the functions we were assigning to BOEM 
and BSEE, and the budgetary, personnel, and IT issues we needed to 
solve before we could launch the new agencies. We knew we only had one 
chance to get it right and we took the time that we needed. The costs 
of getting it wrong were simply too great. I was given the support to 
stick to the timetable we had very carefully developed.
    The broad contours and most of the specifics of the reorganization 
were embraced by Members of Congress, and the President's Oil Spill 
Commission. I testified at hearings on the reorganization and on then-
Chairman Doc Hastings' proposal to codify the reorganization, H.R. 
2231, which he and the other members of this Committee who spoke to the 
issue agreed was necessary and appropriate. According to Chairman 
Hastings,

        ``In the wake of the Deepwater Horizon accident it became 
        apparent that the structure of the regulatory agency charged 
        with oversight of offshore energy production was inadequate. 
        While the Department of the Interior has reorganized their 
        offshore agencies, reforms need to be codified into law . . . 
        .''

        https://naturalresources.house.gov/newsroom/
        documentsingle.aspx?Document ID=269447.

    In the more than 7 years since the reorganization was completed, 
its wisdom has been demonstrated. The agencies function separately and 
independently, with their own distinct and separate missions. They are 
free of the conflicts and questions about independence and technical 
expertise that previously plagued MMS. They have established and 
maintained strong relationships with each other that have kept the 
processes of the two agencies operating effectively. Each agency has 
its own management that is able to maintain focus on that agency's 
mission and performance, and to advocate for its personnel and 
resources. Personnel within both agencies have clearer career paths and 
opportunities for professional development, which ultimately benefits 
the public.
    I have just told, in abbreviated form, the story of a rare 
species--a successful government reorganization. As I said at the 
outset, I know very few of the details of the proposed and far broader 
DOI reorganization that is the subject of this hearing and has been in 
the works for some time. But I gather I am not alone in that regard 
because the details of the reorganization have not been shared widely--
with agency personnel, the Congress or the public, including local 
stakeholders, communities, and Native American tribes.
    Unlike the BOEM-BSEE reorganization, I am aware of no internal or 
external studies of any kind that have made the affirmative case for 
the proposed DOI reorganization. Despite the breadth of the proposed 
reorganization, and its far-reaching impact, this is only the second 
congressional hearing that has focused on it. Similarly, I am aware of 
no GAO analyses, white papers or studies that have presented the logic 
for--and detailed the anticipated benefits of--the reorganization and 
balanced them against anticipated costs.

    A number of questions should be asked about the proposed 
reorganization:

    <bullet> Have the costs and benefits of the reorganization--
            quantitative and qualitative--been identified, analyzed, 
            and discussed?

    <bullet> How will the reorganization improve the efficiency and 
            performance of DOI component agencies, and of the agency as 
            a whole?

    <bullet> How will the delivery of services to the public be 
            improved by the reorganization?

    <bullet> With what frequency has DOI leadership spoken with agency 
            personnel most directly affected by the reorganization?

    <bullet> What mechanisms have been created to address agency 
            personnel questions and concerns?

    <bullet> How will DOI deal with the disruption, uncertainty, and 
            adverse impact on agency morale that is inherent in 
            reorganizations?

    <bullet> What assurances have agency personnel been given that the 
            reorganization is not another front in the war declared by 
            the former secretary on career agency personnel?

    Without specific discussion and analysis that addresses these 
issues--and that is shared broadly with stakeholders--it is hard for me 
to see how DOI gets the internal and external buy-in necessary to 
achieve long-term benefits from the proposed reorganization.
    An ambitious reorganization of the kind that DOI has proposed must 
be based on detailed data collection and analysis, sustained 
consultation with affected internal and stakeholders, and broad sharing 
of information with the Congress and with the public. And for the 
reorganization to succeed, its architects must be willing to make 
changes and adjustments, and even reverse course, if proposed changes 
run into unanticipated obstacles, or simply don't make sense.
    Based on the title of this hearing, and some of the correspondence 
I have reviewed between the Congress and DOI, many of these 
prerequisites for a successful reorganization have not been met. Unless 
that changes, the prospects for a successful reorganization on the 
scale that has been proposed are not rosy and it will likely fail to 
achieve its goals of better serving the American people.

    Thank you for your time and attention. I am happy to answer your 
questions.

                                 ______
                                 

    Mr. Cox. Thank you, Mr. Bromwich. The Chair now recognizes 
Ms. Jamie Rappaport Clark.

   STATEMENT OF JAMIE CLARK, PRESIDENT AND CEO, DEFENDERS OF 
                    WILDLIFE, WASHINGTON, DC

    Ms. Clark. Thank you, Chairman Cox, Chairman Grijalva, and 
Ranking Member Gohmert, for inviting me to testify on this 
important topic.
    With more than 20 years of service with the Federal 
Government, I have personal experience with reorganization 
initiatives and with leading mission-driven organizations. I 
believe the Administration's current effort to reorganize 
Department of the Interior distracts from its vitally important 
mission, wastes scarce fiscal and human resources, disrupts the 
essential and lawful functions of Interior bureaus, reduces 
staff capacity, and seriously undermines employee morale.
    To succeed there must be clarity, not only on the problems 
posed by the existing structure, but how the proposal will 
measurably improve performance. Impacts to personnel and 
operations must be explicitly considered. Transparency and 
public engagement across all affected sectors is vitally 
important. The Administration has not satisfied these 
fundamental criteria. Their plan suffers from a lack of crucial 
details, transparency, accountability, and public engagement. 
They have never really described a compelling need for 
reorganization.
    Consideration of critical questions about the scope, 
purpose, impacts, benefits, and risks of such a radical 
transformation have not been reconciled. In the absence of 
clear and compelling information, many critical questions still 
remain.
    Will the Department involve the public, Congress, and 
stakeholders in its reorganization efforts? As the Department 
directs staff and resources away from mission critical 
activities, it is doing so without seeking legitimate input 
from affected constituencies.
    Will reorganization undermine the authority and missions of 
Interior bureaus, agencies, and officials? A unified military 
command is fundamentally inappropriate for coordinating 
Interior bureaus. A distinct mission and responsibilities for 
each bureau are established by law. Those missions sometimes 
align, but sometimes diverge or even conflict. And that is by 
design. Certainly, bureaus can and should coordinate their 
actions better to achieve timely outcomes, but they cannot be 
legally subordinated to the control of a single unified 
regional directorship.
    The Administration's proposal of 12 unified regions cut 
through watersheds, they cut through states, and even 
individual public lands units, confounding management and 
complicating relationships with partners. Overlaying new 
regions atop current agency boundaries will fracture 
relationships developed with stakeholders over many years.
    Although Interior touts the new regional overlay as a 
reduction in the total number of regions, it will actually 
require additional bureaucratic structure. It requires the 
creation of a new regional office and staff structures, for 
some bureaus by as much as 50 percent.
    Is reorganization a vehicle to deliver the Administration's 
controversial policy agenda? Given this Administration's agenda 
of energy dominance on the public domain, and continuous 
attacks on our conservation laws and regulations, it is fair to 
question whether their purpose is to support their policy 
priorities and weaken the effectiveness of conservation 
programs, rather than to achieve objectives of efficiency and 
public service in carrying out the Interior Department's 
complex and multi-dimensional mission.
    Will reorganization displace or reduce staff or distract 
department employees from their mission-critical duties? The 
Department's talented and dedicated career employees are their 
greatest asset. Supporting and investing in them is key to 
their mission success. Interior has not only rejected this 
principle, its actions repeatedly indicate a belief that public 
employees are liabilities, unnecessary bureaucracy, rather than 
essential to the Department's important mission and their 
success.
    Will reorganization siphon critical resources needed to 
fulfill essential responsibilities for natural resources 
management and protection? At a time of shrinking 
appropriations for conservation, for science, for recreation, 
and other vital management programs at Interior, it is 
irresponsible to invest scarce resources into a process that 
will likely fail to improve government performance and provide 
a fair return to taxpayers.
    The Department of the Interior does not need reorganizing. 
It needs leadership. After more than 2 years in office they 
should focus instead on filling vacant high-level positions, 
including the Directors of the Fish Wildlife Service, the 
Bureau of Land Management, the National Park Service, the 
Assistant Secretary for Fish, Wildlife and Parks, with 
qualified professionals, and addressing the critical 
conservation and resource management challenges we face today.
    We respectfully urge Congress to suspend this damaging 
effort. Pushing forward with this will be the detriment of the 
Department, our natural resources, and the Nation. Thank you.

    [The prepared statement of Ms. Clark follows:]
    Prepared Statement of Jamie Rappaport Clark, President and CEO, 
                         Defenders of Wildlife
    Thank you, Chairman Cox, Ranking Member Gohmert, and members of the 
Subcommittee for inviting me to testify on the Administration's efforts 
to reorganize the Department of the Interior (``Department'' or 
``Interior'').
    As a national organization dedicated to the conservation and 
restoration of native species of wildlife and plants and their 
habitats, Defenders of Wildlife shares a common interest with the 
Department in the protection and proper management of America's public 
lands, waters and wildlife, and we are committed to working with this 
administration, Congress and all stakeholders to achieve this goal.
    With more than 20 years of service with the Federal Government, 
including the National Guard Bureau, the Department of the Army and 
U.S. Fish and Wildlife Service, culminating as Director of the U.S. 
Fish and Wildlife Service, I also have personal experience with 
reorganization initiatives.
    The Administration's current reorganization effort is at best a 
distraction from the Department's vitally important mission and a waste 
of increasingly dwindling resources. At its worst, the proposal 
threatens to disrupt the essential functions of Interior bureaus and 
agencies while distracting staff and seriously undermining morale. Our 
questions about reorganization have only become more numerous with the 
dearth of information on the process and as more and more concern 
radiates from within the Department.
    The agencies, bureaus, and programs administered by the Interior 
Department are profoundly important to conserving and managing the 
natural resources that define our Nation and the values we share. Three 
Interior agencies, the U.S. Fish and Wildlife Service (FWS), National 
Park Service (NPS), and Bureau of Land Management (BLM) steward vast 
areas of public lands and waters and manage fish, wildlife and plant 
species that touch the lives of every American and are an indispensable 
part of our Nation's natural heritage. Other bureaus bear vital 
responsibilities for water management, scientific programs, management 
of the Nation's minerals, and upholding trust responsibilities to 
tribes.
    Improving the effectiveness, efficiency of operations and public 
responsiveness of Federal departments and agencies is always an 
appropriate goal for government. Defenders of Wildlife itself maintains 
a Center for Conservation Innovation whose mission is to identify and 
develop innovative ways to improve the performance of the Endangered 
Species Act and other conservation programs.
    But restructuring Federal departments and processes is a daunting 
challenge that can pose serious risks of disruption to the ongoing and 
vital responsibilities of the government. To succeed, there must be 
clarity on not only the problems posed by the existing structure, but 
also how proposed reorganization will measurably improve performance. 
Problems and solutions must be evaluated in the light of the specific 
legal obligations and missions of the various affected bureaus and 
agencies. Impacts to personnel and operations must be explicitly 
considered. A realistic appraisal of benefits and costs, including 
unintended consequences, must be carefully evaluated prior to 
initiating action. Transparency and public engagement across all 
affected sectors are vitally important.
    The Administration has not satisfied these fundamental criteria in 
pursuing its current proposal. To the contrary, this administration's 
reorganization plan for Interior has from the outset suffered from a 
lack of crucial details, transparency, accountability and public 
engagement. The recent change in leadership at the Secretarial level 
has only further muddled the goals and rationale for reorganization. 
This administration has never described a compelling need for 
reorganization, even as the current process continues to interfere with 
Interior bureaus and agencies achieving their missions and disrupt 
staff responsible for managing and conserving our natural resources. It 
appears as if an original sweeping decision was made to reorganize the 
Department for political reasons without even considering critical 
questions about the scope, purpose, impacts, benefits and risks of such 
a radical transformation.
    In the absence of clear information on the nature and purposes of 
reorganization, many critical questions remain.
Will the Department involve the public, Congress and stakeholders in 
        its reorganization effort?

    The lack of information, outdated and conflicting reports, and 
failure to engage the public and Congress surrounding the proposed 
reorganization is remarkable and suggests that the Administration would 
prefer ambiguity and obscurity regarding the true purposes and impacts 
of the effort. Equally disturbing is that the Department's political 
leadership doesn't itself appear to understand the magnitude of their 
initiative well enough to articulate and defend it. Even as the 
Department seeks additional appropriations from Congress and directs 
more staff and resources away from mission critical activities to 
reorganization, it is doing so without updating and seeking input from 
affected constituencies. Notably, the House of Representatives 
Committee on Natural Resources requested basic information on 
reorganization from the Secretary of the Interior just this month and 
he has missed the deadline to respond. Previous attempts to reorganize 
and restructure Federal agencies have failed when leadership declined 
to engage the public in their plans or ignored input from 
constituencies they were appointed to serve.
Will reorganization undermine the authority and missions of Interior 
        bureaus, agencies and officials?

    Former Secretary of the Interior Zinke publicly advanced the idea 
of a unified regional command structure for the Department as part of 
the Administration's proposed reorganization. While it is not clear 
that Secretary Bernhardt fully embraces that concept, the scant 
information available indicates that, while Interior bureaus and 
agencies will continue for the most part to report to their own 
leadership, at least some decision-making authority will also be given 
over to new ``Interior Regional Directors,'' each responsible for 1 of 
12 ``Unified Regions.'' That proposal raises serious concerns for the 
integrity of the Department's management.
    The model of a unified military command is a fundamentally 
inappropriate structure for coordinating Department bureaus and 
agencies. Each bureau has a distinct mission and responsibilities 
established by law. Those missions sometimes align, but sometimes 
diverge or even conflict--and that is by design. The public lands 
systems administered by FWS, NPS and BLM each have distinct statutory 
missions, with management directed and constrained by the specific laws 
that govern each system. For example, balanced energy development may 
be appropriate on BLM's lands, but not the National Wildlife Refuge 
System or the National Park System. In addition, some of Interior's 
bureaus, such as FWS and the Bureau of Safety and Environmental 
Enforcement (``BSEE'') exercise regulatory authority over the 
activities of other agencies to ensure protection of paramount values 
such as wildlife resources and public safety. The Department's existing 
structure provides public interest protections in the form of 
appropriate interagency checks and balances while promoting 
accountability and mitigating the risk of agency capture.
    Certainly, agencies carrying out their individual responsibilities 
can and should coordinate actions to achieve timely outcomes for 
activities like permitting, but they cannot legally be subordinated to 
the control of a single unified regional directorship. Only FWS, for 
example, has legal authority to manage the National Wildlife Refuge 
System or enforce the Endangered Species Act and Migratory Bird Treaty 
Act; only the NPS has authority to manage our national parks; only BSEE 
can determine whether offshore drilling authorized by the Bureau of 
Ocean Energy Management complies with appropriate environmental and 
safety requirements. No other office or administrator of any other 
bureau can direct decisions reserved by law to these agencies. For 
these reasons, the concept of Interior Regional Directors may be both 
inappropriate and fundamentally unlawful.
    A related proposal involves the creation of 12 uniform regional 
boundaries for the Department's bureaus and agencies, ostensibly to 
improve coordination and service for Interior's customers and the 
public. But this is another concept that recklessly misses the mark. 
First, the ``unified'' regions cut through watersheds, states and even 
individual public lands units, confounding management and complicating 
relationships with partners. As just one example, the Upper Mississippi 
National Wildlife Refuge would be divided between two regions, with one 
bank of the Mississippi River in Region 3 and the other in Region 4. To 
whom should the refuge manager report? Second, overlaying the new 
regions atop current agency geographic orientations would fracture the 
functional relationships that those offices have developed with states 
and stakeholders over many years.
    Finally, these unified regions would actually require additional 
bureaucratic structure for some agencies. Although the Administration 
touts the new regional overlay as a reduction in the total number of 
regions now administered by Interior bureaus and agencies, the truth is 
that it expands the number of regions for each bureau by as much as 50 
percent, requiring the creation of new regional offices and staff 
structures. The FWS, for example, is currently organized across eight 
regions; the reorganization proposal would require the agency to create 
four new offices to cover the Department's 12 ``unified'' regions (as 
well as requiring the existing regional offices to drastically realign 
their boundaries). Similarly, the NPS would also be required to expand 
its regional structure from 7 regions to 12 to cover the newly drawn 
``unified'' regions. This is a remarkable and unjustifiable expansion 
in bureaucracy, and an utter violation of the principle that ``form 
follows function,'' with an increasingly confusing and top-heavy 
bureaucratic structure shifting scarce resources away from actions on 
the ground and responding to stakeholder needs.
    And, of course, the purportedly ``unified'' Departmental regions 
are in fact anything but unified. In the face of vigorous opposition 
from states fearing disruption of established working relationships, 
the Department decided a year ago that the BLM, the bureau that manages 
more of the Department's lands than any other, would not be part of the 
new regional structure, but rather would retain its current state 
offices. Similarly, hearing concern from tribes, the Department has 
withdrawn the Bureau of Indian Affairs and the Bureau of Indian 
Education from the new ``unified'' structure. Stakeholders with 
business before the Department would now face a chaotic and confusing 
regional structure that would impede, not foster, sensible coordination 
among Interior's bureaus and agencies. It is difficult to understand 
how this new regional structure could conceivably provide any benefit 
to outweigh its obvious costs.
    Defenders of Wildlife does agree that agencies and bureaus involved 
in natural resource management and conservation should be attuned to 
ecological boundaries. For instance, we have long supported efforts 
such as Interior's Landscape Conservation Cooperatives to coordinate 
conservation programs at a landscape level. Similarly, we supported 
BLM's ``Planning 2.0'' regulatory initiative for its incorporation of 
landscape-scale concepts in land management planning. Neither of these 
initiatives compelled an upheaval of structure, reporting alignments or 
shifting of responsibilities; instead, they simply promoted coordinated 
conservation and land management. Yet this administration worked with 
congressional allies to undermine or scuttle these initiatives along 
with other ecologically mindful policies and programs.
Is reorganization a vehicle to deliver the Administration's 
        controversial policy agenda? Will it impede Interior bureaus 
        and agencies from achieving outcomes in accordance with their 
        missions and responsibilities that may not be a priority for 
        this administration?

    Given this administration's natural resource management agenda, 
including the imposition of ``energy dominance'' on the public domain 
and attacks on our conservation laws and regulations, it is fair to 
question whether the purpose of reorganization is actually geared to 
support these policy ends, rather than to achieve objectives of 
efficiency and public service in carrying out the Department's complex 
and multi-dimensional mission.

    The Administration and the Department have vigorously pursued 
regulatory rollbacks and eliminated policies and programs that 
supported more effective, efficient natural resource management at 
landscape scales and across jurisdictional boundaries, belying their 
stated objective of improving land and resource management. These 
rollbacks include:

    <bullet> Undoing carefully crafted, collaborative, balanced 
            conservation planning, such as the Integrated Activity Plan 
            for the National Petroleum Reserve-Alaska and the National 
            Greater Sage-Grouse Conservation Strategy;

    <bullet> Endorsing congressional efforts to reverse policies that 
            required more effective, efficient management of public 
            resources;

    <bullet> Eliminating, revoking, or disbanding nearly two dozen 
            policies, programs and collaborative efforts to address 
            climate change across the country; and

    <bullet> Proposing regulatory changes under the Endangered Species 
            Act that will result in additional harm to listed species 
            and significantly exacerbate their recovery.

    At the same time, the Administration is prioritizing single uses of 
our public lands, waters and natural resources and devolving management 
authority to states, creating a patchwork of inconsistent and 
misdirected natural resource policies. Reorganization aimed at 
weakening the effectiveness of conservation programs and prioritizing 
narrow economic interests would be in line with the Administration's 
agenda--and would have serious impacts on the conservation and 
restoration of fish and wildlife, essential habitats, irreplaceable 
historic and cultural resources, and other public values on more than a 
billion acres of Federal public lands and waters.
    The Administration's lack of congressionally confirmed leadership, 
reliance on ``acting'' officials, and proposed budget cuts further 
reflect disdain for effective government and beg the question of 
whether reorganization is more about ``dismantling the administrative 
state'' to better serve development interests than stewarding natural 
resources for the continuing and future benefit of all Americans.
Will reorganization displace or reduce staff and distract Department 
        employees from their mission critical duties?

    Its talented, driven and dedicated career employees are the 
Department's greatest asset. Supporting and investing in these public 
servants is the key to the success of the Department's mission. 
Unfortunately, this administration's actions repeatedly indicate a 
belief that public employees are liabilities--``unnecessary 
bureaucracy''--rather than essential to the Department's success. For 
example, in 2017, former Secretary of the Interior Zinke pledged to 
shrink the Department by 4,000 employees, or about 8 percent of the 
full-time staff, consistent with the Administration's promise to slash 
agency budgets and the Federal work force. His widely touted pledge was 
pursued with seemingly little understanding of the impacts on people or 
programs and even less justification and rationale for his decision.
    The Administration also abruptly and without any stated purpose 
reassigned and transferred dozens of senior-level employees, sapping 
the effectiveness of these executives and their agencies and prompting 
some highly capable employees to retire. Affected career professional 
were caught by surprise, morale throughout the bureaus was undermined 
and external partners and stakeholders were left confused and 
frustrated. The Department's Inspector General later found that the 
Department had no plan or stated reason for the reassignments, had 
failed to consult with the affected employees, and had failed to gather 
the information required to make informed decisions about reassignment, 
leading a majority of the affected senior executives to conclude that 
the effort was political or punitive in nature.
    It thus appears to be the prevailing opinion of this administration 
that public employees offer little value--unless, of course, they are 
serving resource extraction or other development interests, as 
evidenced during the partial government shutdown when oil and gas 
permitting continued while thousands of Federal employees with other 
important public responsibilities were sent home.
    We are gravely concerned that reorganization of Interior will lead 
to further attempts to shrink the work force by encouraging attrition, 
buyouts and early retirements. As Professor Amanda Leiter of American 
University noted: ``The process . . . makes clear that this 
administration has no real intention of improving Interior but instead 
hopes to destabilize the department and encourage staff departures.'' 
\1\ Rebuilding the Department's cadre of career employees will take 
even more time and more resources, all while mission critical programs 
and activities increasingly suffer and external stakeholders' 
frustration and disdain steadily increase.
---------------------------------------------------------------------------
    \1\ Reorganizing the Administration of Public Lands: Zinke's 
Proposal to Revamp Interior Department. The Environmental Forum, May/
June 2018: 50-57; available at www.eli.org/sites/default/files/tef/
thedebate/TheDebateMay2018.pdf.
---------------------------------------------------------------------------
    The Administration has argued that the potential for employee 
disruption and impacts on staff morale would be alleviated by the 
imminent retirement of many of Interior's employees and their 
replacement with less experienced staff. If that proves true, the 
Department will suffer enormous loss of institutional experience and 
professional relationships essential to managing the Nation's natural 
resources and maintaining the Department's collaborative engagement 
with states, tribes, landowners and the public. Of course, it is just 
this sort of disrupting influence that may be driving reorganization--
which may also involve relocating some unknown number of employees from 
Washington, DC, to elsewhere in the country. Current information is 
that entire divisions and programs within BLM and the U.S. Geological 
Survey may be transferred west with little justification and 
significant costs.
Will reorganization siphon critical resources needed to fulfill 
        essential responsibilities for natural resource management and 
        protection?

    The Administration is seeking $27.6 million for reorganization in 
FY 2020. Expenses to date have been paid from current agency budgets. 
At a time of shrinking appropriations for conservation, recreation and 
other vital management programs at Interior, it is irresponsible to 
invest scarce funding into a process that will likely fail to improve 
government performance and provide a fair return to taxpayers. Indeed, 
the reorganization has already siphoned critical capacity and resources 
from fundamental conservation and management functions across the 
Department and the impacts are causing challenges that may be difficult 
to overcome. Congress would not be advised to support Interior's 
present request for its proposed reorganization.
                               conclusion
    The proposed reorganization of the Department of the Interior 
raises profound and troubling questions. Its purposes and goals remain 
unclear, as does its actual scope. What does seem clear, however, is 
that it is likely to be a wasteful and disruptive distraction to 
Interior's bureaus and agencies and their dedicated employees, some of 
whom will face years of uncertainty about their professional careers 
and their personal lives. The Nation's lands, waters, and wildlife will 
be better served by focusing on the critical conservation and natural 
resource management challenges Interior faces today. We respectfully 
urge Congress to suspend this damaging effort.
    Pushing forward with this ill-considered, poorly communicated 
proposal will continue to interfere with Interior's ability to engage 
with critical management challenges, to the detriment of the 
Department, our natural resources and the Nation. It will take decades, 
and require fiscal resources the Federal budget is likely ill-prepared 
to support, to recover from the dislocation and disruption caused by 
this proposed reorganization.
    Thank you for inviting me to testify at this important hearing. I 
look forward to working with the Subcommittee to support the Department 
of the Interior and its employees in achieving its critically important 
conservation mission. Our stewardship responsibility today and to 
future generations deserves no less.

                                 ______
                                 

    Mr. Cox. Thank you, everyone, for your valuable testimony. 
The Chair will now recognize Members for questions.
    Under Committee Rule 3(d), each Member will be recognized 
for 5 minutes. With that, I would like to recognize myself for 
the first 5 minutes.
    Mr. Cameron, Chairman Grijalva and I asked for a single 
document, the only single document that I know exists that 
could resemble a comprehensive plan, because the Executive 
Order required it. We haven't gotten it, and I know it was 
completed. It was prepared for delivery. And I went to the 
trouble of locating it in your files for you just to make it as 
easy as possible. But somehow you can't seem to find it and get 
it to this Committee. Committee Staff has asked you to 
prioritize it for this hearing over other requests.
    I can only conclude that some review process among 
political appointees is holding it up. What is the delay? I 
certainly hope you are not trying, I don't mean to say that you 
are hiding anything, but we have asked for this document, it 
has not been produced for this Committee, for this Congress, 
for public consumption.
    Mr. Cameron. Mr. Chairman, thank you for that question. I 
am aware of that specific request. And our Office of 
Congressional Relations is in the process of producing a 
response for the Committee.
    I think it is worth pointing out that the document in 
question was actually a submission from Secretary Zinke to OMB. 
And as such, it didn't represent a final document in terms of 
representing the views of the White House.
    Mr. Cox. I am going to take it that is a commitment to 
providing the Committee with that document. Can you give us a 
date for that delivery?
    Mr. Cameron. Sir, I am not in a position at this point to 
promise you that we are going to give you the document. I will 
promise you that we will be responding to the letter, and I 
hope shortly.
    Mr. Cox. Thank you.
    Chairman Fraser, is there any evidence at all--and I think 
you already testified to this remark, but I just want to hit 
the point again--that this reorganization improves services to 
federally recognized tribes?
    Mr. Frazier. What was that?
    Mr. Cox. Is there any evidence that you have seen so far 
that the reorganization will improve services to federally 
recognized tribes?
    Mr. Frazier. No. Like I mentioned, all we were given was a 
map. No other details were given to us, and I don't believe it 
is going to improve services to the tribe.
    Mr. Cox. Mr. Cameron, can you elaborate on that? There 
seems to be, just from what the Chairman is speaking to us 
about, no coordination, no notification, no conversation.
    Mr. Cameron. Mr. Chairman, I had an opportunity to have a 
conversation with the Assistant Secretary of Indian Affairs 
staff before I prepared for this hearing, and my understanding 
is that BIA held 11 formal tribal consultation meetings and an 
additional 7 listening sessions with tribal leaders around the 
country on the reorganization. Because we respect the 
sovereignty of Indian tribes, we were not willing to impose, if 
you will, the involvement of BIA and BIE in the reorganization 
effort on the tribes. And since the tribes have not been 
particularly enthusiastic about the notion of their bureaus 
being part of the reorganization, we, in fact, have not 
included them.
    I would suggest that, to the extent there is improved 
coordination at a regional level with the other bureaus of the 
Department, that that would give Indian tribal leaders one-stop 
shopping, if you will, one regional director to talk to, as 
opposed to being passed along from the Fish and Wildlife 
Regional Director to the USGS Regional Director to the Bureau 
of Reclamation Regional Director.
    Mr. Cox. Chairman Frazier, any feedback with regard to 
that?
    Mr. Frazier. Yes. You know what? The only time I recall 
them coming these past several years was to Rapid City, and 
then, like I mentioned, they only come one time with a map. I 
never saw any documentation that there were other consultation 
hearings or anything like that.
    Most of the time what I have seen is just the decision 
making--because nobody is in a permanent position, they are all 
in an acting capacity, and a lot of our questions are, their 
decisions are never made. I mean we have to chase it, and all 
the way up here to Washington sometimes.
    Mr. Cox. There is the point there, as I am sure you can 
see, Mr. Cameron, that one of the key stakeholders just feels 
excluded from the process, regardless of the hearings that you 
have had or the meetings that you have had. The point is not 
getting across to the people that we need to be talking to.
    So, I certainly hope that the feedback from these meetings, 
the notes, the agenda, are going to be made part of this plan 
and integrated with the plans moving forward.
    I am out of time, so the Chair will recognize the Ranking 
Member for 5 minutes.
    Mr. Gohmert. Thank you, Mr. Chairman.
    Mr. Cameron, with regard to the title of the hearing today, 
are there no road maps, no destinations, and no justification 
for DOI reorganization?
    Mr. Cameron. Thank you, Mr. Gohmert, for that question. I 
would suggest that, actually, we do have all aspects of that. 
Essentially, the reorganization has three parts: the unified 
region concept, which has already initially deployed, if you 
will; there is the notion of saving money to invest in Indian 
schools and other departmental services by pursuing shared 
services in our back office administrative functions to get 
some efficiencies there; and the third prong is the notion of 
moving the headquarters elements of BLM and the USGS west to be 
closer to where the preponderance of those bureaus' activities 
are taking place.
    And I would add that there is a precedent, the Bureau of 
Reclamation is largely headquartered in Denver right now.
    Mr. Gohmert. I appreciate that, and I think it will be 
tremendously helpful when Chairman Frazier doesn't have to 
chase things to Washington. He can go much more locally to have 
his input considered.
    And even though, apparently, the 11 hearings and 7 
additional listening sessions at tribal offices, gatherings, 
and other venues may have indicated a desire not to have 
reorganization, I would submit that BIA really does need some 
reorganization efforts.
    In fact, hearings that we have had in this Committee since 
I have been here indicated that, for example, there was an 
attorney working for the Clinton administration that 
specifically chose to leave out a provision in a contract with 
an oil company for offshore drilling, which cost the Federal 
Government $10 billion and inured to the benefit of people like 
British Petroleum. And that attorney that left out that 
provision then went to work for British Petroleum. We tried to 
subpoena that attorney, and were told, ``Well, she doesn't work 
for the government, so we can't facilitate that.'' And then, 
not long after that, I found out she had now come back to work 
for the Obama administration.
    We also know apparently Mr. Bromwich went to work for DOI a 
couple of months after the Deepwater Horizon blowout. Some of 
us recall that specifically, and we couldn't believe that DOI 
wasn't doing more to go after British Petroleum. And we found 
out in hearings here that they had nearly 800 egregious safety 
violations when Exxon or others had 1, 2, or so, like that. How 
were they ever allowed to keep going?
    There were rumors of different bribes and things like that, 
and we were assured by the Obama BLM Director and others that 
the organization at that point was addressing all those issues 
and, in fact, they were very careful to make sure inspectors of 
offshore drilling that was under DOI--they sent two people out 
at a time to make sure that no bribes were going on because one 
would surely report the other if that occurred.
    And shortly after it was disclosed at the hearing that, 
actually, the two people that were sent out, the last 
inspection of the Deepwater Horizon, were a father and son. The 
BLM Director didn't last long right after our hearing before 
being removed.
    So, it appeared clear to me, regardless of what report you 
have internally, from an external perspective the DOI has been 
in as much need of reorganization of any group I have ever seen 
in my life. And from exposure to the Park Service, which seems 
to be more about the Park Service--same with Fish and Wildlife, 
there are too many people that work there that are more about 
themselves to the detriment of the public, not taking care of 
repairs.
    We heard mention of shrinking budgets, yet we know the Land 
and Water Conservation Fund keeps growing and it keeps being 
used to acquire property, rather than keeping up with what we 
have.
    So, I would submit, just based on what I have seen in the 
hearings over the years, we are deeply in need of 
reorganization. But with the Chairman I sure desire to see the 
final product as soon as we can get that, so that we can do 
proper oversight. I would encourage you to make that available, 
Mr. Cameron. Thank you.
    Mr. Cox. Thank you, Ranking Member Gohmert. And now I would 
like to recognize the gentleman from Arizona for 5 minutes.
    Mr. Grijalva. Thank you, Mr. Chairman. Ms. Rappaport Clark, 
just a general question.
    I was thinking if there was an instruction manual on how to 
fundamentally weaken an agency, this is what I think it would 
recommend: start by creating a crisis for key agencies, move 
them as far away from Congress as possible to minimize contact 
with appropriators and authorizers, undermine those 
relationships, separate them from the non-profit community that 
helps them make informed decisions, then make it clear to the 
work force that they are not valued, create a culture of fear 
to demand total loyalty, transfer them to jobs for which they 
have no qualifications or interest, send them to new parts of 
the country, uproot their families and lives, quietly close or 
gut programs throughout the agency, take away their decision-
making authority and voice within the Department and put it in 
the hands of political appointees, cut them out of the loop so 
they don't even know what is happening in the areas they cover, 
and downgrade their performance ratings across the board 
claiming they could not possibly be good at their jobs.
    Ms. Rappaport Clark, how do these attacks on workers 
following this manual, which I think is going on, affect our 
ability to protect endangered species, address climate change, 
or, for that matter, fulfill all the other legal mandates the 
DOI has?
    Ms. Clark. They don't, Mr. Chairman. It is incredibly 
destabilized. Focus is not on the task at hand. Employees are 
confused. Stakeholders are confused. Communication is not 
flowing, and there is a culture of fear in the Interior 
Department, clearly in the Fish and Wildlife Service, given the 
reckless nature of senior executive reassignments with no 
justification, with no information, with no conversation. 
Another round is expected to be coming.
    This is an agency, I believe, in crisis, which diverts its 
talent, it diverts its responsibilities, it diverts its 
attention to addressing species extinction, land management 
needs, climate change, all of the water management, all of the 
very important natural resource values that that Department is 
trusted to oversee and take care of.
    Mr. Grijalva. Thank you. Mr. Secretary, Mr. Cameron, when 
you were here just a few weeks ago I showed you this e-mail 
chain, which documents to all Senators and myself were directed 
to be bottlenecked through two political appointees who were 
handling nominations. You had a chance since to learn about 
that e-mail. Could you explain to me why I was singled out? I 
don't have a vote on the nomination of Bernhardt, didn't have a 
vote, and can you tell us the status? What information you have 
since we saw you last?
    Mr. Cameron. Mr. Chairman, I didn't know anything about 
that e-mail chain back then, when you first showed it to me, 
and I don't know anything more about it now. To the best of my 
knowledge, no Member of the Congress has been singled out. We 
are trying to be very responsive. We produced tens of thousands 
of pages of documents over the last 2 years, sir, and----
    Mr. Grijalva. Mr. Cameron, you are a smart guy. Everybody 
knows that. You should have anticipated this question, and that 
raises questions about obstruction. Why was one person singled 
out? I would like a date, and why then am I singled out?
    The e-mail was sent by career staff. Which political 
appointee directed career staff to send that e-mail? And is the 
directive still in place? And when will it be rescinded?
    Those are questions that demand answers, and we have to 
have them, as a Committee, not just for myself, but this can 
affect any member of this Committee, where they are singled out 
not to receive information. I think that whether it is one 
individual or not, it is a precedent that I think needs to be 
dealt with.
    I repeat the same request we had the last time. I think it 
is vital information that we have. And when do you anticipate 
giving us that information?
    Mr. Cameron. Mr. Chairman, I can tell you that Secretary 
Bernhardt is very interested in having conversations with the 
Congress. I believe he has requested individual meetings with 
dozens of Members of Congress, in the process of trying to get 
those scheduled over the next several weeks. We are actively 
interested in engaging with the Congress, and I hope that you 
and the Secretary will have an opportunity to have a 
conversation.
    Mr. Grijalva. That still doesn't answer the question. I 
yield back. Not at all.
    Mr. Cox. Thank you. The Chair now recognizes the gentleman 
from Utah.
    Mr. Bishop. Thank you, Mr. Chairman. I thank the witnesses 
for being here.
    I assume that you will probably have to make sure that your 
testimony is in writing, since very few members of the 
Committee are actually here to hear you. We actually had 25 
percent of the Committee in attendance until Mr. Gosar showed 
up. That percentage just jumped up to 37 percent. It is not a 
stellar performance by Congress by any means, but thank you 
all. I appreciate you doing that. Let me ask some questions.
    Actually, I have heard some of the comments that have come 
out from our witnesses calling reorganization disruptive, 
expensive, and frustrating, which is also the verb or 
adjectives that can be used for the status quo. Right now it is 
disruptive, expensive, and frustrating, and much of the 
success--certain reorganizations, I think, have been inflated 
sometimes.
    One of the witnesses said we had to chase this all the way 
up here to Washington, which is one of the problems we have 
with the Department of the Interior right now, which is why the 
reorganization was established or presented in the first place.
    The Department of the Interior was established in 1848, and 
it came out of bringing programs from three different 
departments. At that particular time it was actually the fifth 
department that was established. And to say that it was done by 
design is really strange. It was done by happenstance. In fact, 
even the BLM today, its job and mission is totally different 
than the reason for which it was created in the 1930s.
    So, what we really need to do is take a step back and try 
to look at things and say how can we do something intelligent 
and rational in this particular approach. So, let me ask a 
couple of specific questions about the topic matter at hand.
    Mr. Cameron, BIA, Bureau of Indian Education, and what is 
it--the Office of Special Trustee for American Indians, those 
are not part of any reorganization process that is being 
proposed, right?
    Mr. Cameron. That is correct, sir.
    Mr. Bishop. OK, so with that, I can still understand why 
Chairman Frazier would be frustrated with BIE. To illustrate, I 
think it shows the kind of disruption that we have in that 
entire process here in Washington. We have jurisdiction over 
BIA, as far as oversight is concerned, but not over BIE, which 
is in the Labor Committee. If you can figure out why that 
happens, and why that worked out, that is another question I 
always had.
    I was very interested in Bureau of Indian Education issues, 
but they were not in the purview, necessarily, of our 
Committee--but not legally because of that, simply by 
tradition, which is one of the problems that Interior has over 
the decades that have been there, is things have been developed 
by tradition without legally thinking through them.
    So, Chairman Frazier, I agree with what you are saying 
about problems with BIE. I hope we can solve it, which is also 
one of the reasons I hope Mr. Grijalva will simply schedule a 
hearing for a backlog bill because some of that money that is 
curated in our park maintenance backlog bill would also be 
extended in the House version to the Bureau of Indian 
Education. It is an important source of money to try to help 
change and reform that system.
    Mr. Cameron, let me also ask you. In your written 
testimony, you talked about benefits of relocating the DOI from 
Washington, DC. Can you just simply explain some of the long-
term savings that a relocation would actually realize?
    Mr. Cameron. Yes, Mr. Bishop. There are a number of types 
of savings.
    For one thing, the rental cost in most cities in the West 
is a lot cheaper than in the main Interior building or in 
Washington, DC, generally.
    Travel costs, travel time. Most of the airplane trips are 
from the East Coast to the West Coast. If we had the Geological 
Survey headquarters and BLM headquarters out West somewhere, 
there would be a lot more 1-hour plane trips instead of 4-hour 
plane trips.
    Cost of living for our employees is a lot cheaper out West 
in most locations than it would be here. And there is a list of 
a dozen or so variables that we are looking at.
    Mr. Bishop. All right. Let's talk about something specific. 
If we actually did increase the effort on the local level to 
have better communications between all these different 
stovepipe agencies and divisions, can you tell me how that 
would possibly impact, let's say wildfire response, wildfire 
mitigation if we could coordinate with the Forest Service?
    Mr. Cameron. Yes, Mr. Chairman--Mr. Bishop.
    Mr. Bishop. I like that much better, too.
    [Laughter.]
    Mr. Cameron. Typically, for most significant issues 
multiple bureaus are involved. And the traditional approach has 
been, if there are issues or conflicts between bureaus----
    Mr. Bishop. Mr. Cameron, you have 25 seconds to say it. 
Tell me.
    Mr. Cameron. OK. There will be closer coordination, tighter 
coordination at the regional level, less decisions kicked up to 
Washington.
    Mr. Bishop. Look, if you guys have not been conversing or 
talking to people--because I remember the first map, which was 
done along county lines. Now it is done along state lines. That 
came from conversations with the states. I wonder if you have 
not been communicating why was Mr. Cason out there--Ms. Sloan 
was out in my particular area--talking to people about it? We 
have had those conversations.
    I am over--I yield back.
    Mr. Cox. Thank you. We will now recognize the gentleman 
from Arizona, Mr. Gosar, for 5 minutes.
    Dr. Gosar. Secretary Cameron, in what ways is the DOI's 
reorganization going to improve on-the-ground responses? I mean 
I can give you a number of ones from Arizona that we are 
looking at: Fish and Wildlife Service reaction in regards to 
Lake Havasu, and Forest Service is in part of it, but the RFP 
situation for large-scale landscape timber thinnings--tell me 
how it is going to act on the ground, the reorganization.
    Mr. Cameron. I can give you one good example that is 
relevant, especially, I think, to Arizona. I know that you and 
the Chairman of the Full Committee are both concerned about 
water resource issues in Arizona. Well, the invasive salt 
cedar, or tamarisk plant, causes major problems in riparian 
areas, in terms of depleting water supply. It goes through BLM 
land, it goes through Fish and Wildlife Service land, it goes 
through park land, it goes through state and private land, and 
it goes through Indian reservations. By increasing coordination 
at the regional level on a multi-bureau basis, we can make 
smarter decisions, we can allocate our resources more 
intelligently, and we can deliver better results for the 
American people.
    That is just one example. Fire is another, forest 
management, water resource management in the Central Valley of 
California would be another.
    Dr. Gosar. Yes, I think the only drawback to your plan, 
though, was that if we were a part of California, from Arizona, 
we would ask that the headquarters be in Arizona so that 
California came to Arizona for that aspect. No pun intended.
    [Laughter.]
    Dr. Gosar. Now, how would the regional directors interact?
    Mr. Cameron. The bureau regional directors would continue 
to have their traditional chain of command to Washington. We 
would not be attempting to change any statutory delegations for 
any of the bureaus, contrary to what my former colleague at 
Interior felt a few minutes ago.
    But at the regional level we would have an Interior 
Regional Director who would be a coordinator in chief, convener 
in chief, to pull his or her peers together to deal with common 
issues so that, again, there is more decision making by career 
senior executives at the regional level, fewer issues kicked up 
to Washington. This has worked in California, for instance, 
where Paul Souza, the regional director of the Fish and 
Wildlife Service, is coordinating the activities of the Bureau 
of Reclamation and the U.S. Geological Survey.
    It is great to have one person being able to convene all 
the bureaus with equities in an issue, rather than kicking 
things up to Washington for decisions 3,000 miles away.
    Dr. Gosar. Give me an oversight about accountability.
    Part of the problem that we have had in Arizona on a number 
of issues has been lack of accountability. Tell me how that 
response time is going to change. And what are the steps of 
accountability?
    Mr. Cameron. We will be working on individual performance 
standards for the person who is charged with being an Interior 
Regional Director in each one of the regions, and there will be 
specific expectations in terms of what that person's scope is 
or is not, on a region-by-region basis. And they would be 
reporting to the Deputy Secretary in Washington.
    So, we will have accountability, but we will not be cutting 
out the bureau directors and the assistant secretaries. The 
traditional chains of command would also apply.
    Dr. Gosar. I am going to be more specific. We had this 
debacle in Lake Havasu, where we had a regional director 
overstep his direction, a totally illegal action. Give me a 
response of how, under the new guidelines, we would have 
resolution based upon an egregious attempt to supersede the 
rules and regulatory state.
    Mr. Cameron. If there was a conflict between our bureaus, 
for instance at the regional level, the Interior Regional 
Director would be charged with pulling people together, 
defining the nature of the conflict, narrowing it to the extent 
it could be, clarifying issues that would then be rapidly 
elevated to the Secretary's office in Washington, rather than 
letting things fester. And we would identify, I think, problems 
sooner and get them elevated faster if they couldn't be 
resolved at the regional level.
    Dr. Gosar. End of the day, can't get resolution. How do we 
look at redirecting or putting somebody in a position for 
success, instead of failure?
    Mr. Cameron. One thing we can do is, by having the people 
who are making the decisions closer to the place where the 
decisions are going to have impact on the ground--and that is 
part of the rationale for moving BLM and USGS headquarters 
West, so you will have more informed headquarters people, as 
opposed to people who are located thousands of miles away and 
have never been on the ground in Maricopa County, for instance, 
or St. George, Utah.
    Dr. Gosar. Thank you, Assistant Secretary.
    Mr. Cox. Thank you so much. I will recognize myself again 
for another 5 minutes.
    The questions that are being brought up naturally all go 
back to the same basic question--regarding the document. We 
have requested it, you have had 20 days to review the document, 
that should be more than enough time.
    And, as you know, the deliberative process, it is not a 
legally defensible reason to deny Congress this document. Can 
you provide any type of legal justification whatsoever for 
withholding the plan?
    Mr. Cameron. Sir, for once I am glad I am not an attorney. 
I won't dare to go outside of my area of expertise, so I cannot 
provide that.
    Mr. Cox. Thanks so much. And just back to the general 
questions again.
    Mr. Bromwich, any evidence at all that this reorganization 
strategy or plan is going to strengthen agency decision making?
    Mr. Bromwich. Well, if there is, we haven't seen it. And it 
is up to the agency to provide it.
    I looked at the reorganization website that DOI sponsors. 
There has been nothing posted on it since November 1.
    One of the key elements of a reorganization, if it is going 
to succeed, is to continue to push information out to all of 
the stakeholders who are affected by it, most particularly the 
employees in the agencies that are going to be affected. And 
you can read through everything that is on the DOI 
reorganization website in less than half an hour. And as I 
said, it hasn't been updated in 5 months since November 1.
    So, you can't handle a reorganization that is a mystery 
shrouded in another mystery. You need to be open about it. You 
need to provide the details of what you're doing. You need to 
lay out the costs and benefits that will be accomplished 
through the reorganization. None of that has been done.
    Mr. Cameron has done a very good job of talking in 
generalities, but they are only generalities. And without 
having the kind of analysis that undergirds a real and 
potentially successful reorganization, it is simply not going 
to work. If the reorganization that has been described by Mr. 
Cameron, and has previously been described by Secretary Zinke, 
were submitted to a board of directors of any major company in 
this country, it would be rejected flatly for lack of detail.
    Mr. Cox. Thank you. Ms. Rappaport Clark, is there any 
evidence at all that the reorganization will provide or improve 
protection for endangered species, or other natural resources?
    Ms. Clark. Mr. Chairman, I don't see it. And I will echo 
what Mr. Bromwich just said. It is disturbingly sparse in 
details. And the coordination at the regional level, the 
coordination at the field level actually does occur, so sending 
headquarters people to the West isn't going to enhance 
interagency coordination and collaboration and resource 
sharing. It will undermine, actually, bureau director 
coordination if half are in the West and half are in the East.
    And at the end of the day, employees are confused, and 
important resources like endangered species, water, natural 
resources, lands are just a big confused mess. I don't see how 
it is organized in a way that will allow and support more 
efficient decision making or stakeholder engagement.
    Mr. Cox. Thank you so much. And Chairman Frazier, what do 
you think the Interior could do with the--there has been $60 
million spent so far. What you think the Interior could do with 
an extra $60 million?
    Mr. Frazier. Well, with all of the flooding going on, I can 
think of two roads on our reservation that could use it. I 
think BIA Route 12 and Route 7 could sure use $60 million. I 
think we did an engineering report on one, and it was going to 
be over $30 million, so we could better use that money on our 
reservations, and I am sure other tribes throughout can use 
them, too.
    Mr. Cox. Thanks so much. With that, I will yield back my 
time and now to Ranking Member Gohmert for 5 minutes.
    Mr. Gohmert. Thank you, Mr. Chairman.
    And Chairman Frazier, I understood you to say that you 
didn't recall hearings and what not. But I can assure you the 
Committee would be very interested in any suggestions you or 
other Native Americans would have for suggestions about 
reorganization.
    I am one that doesn't really care if there weren't a lot of 
internal proposals, especially from top people at DOI. I think 
it is a bureaucratic nightmare, and I think the treatment of 
Native Americans by BIA and others has not been what it should 
have been. So, please consider this as a chance to get 
information. If DOI is not interested, I know from Chairman 
Cox, we would both, and this Committee would be interested in 
any suggestions you have. So, please keep that in mind.
    And with regard to the reorganization, Mr. Cameron, I know 
you are aware that in recent years, especially the last 
administration, but even going before that, the Department of 
the Interior has been plagued with harassment claims. And I am 
wondering what a reorganization would do to help address some 
of these. It is just far too widespread, the reports of 
workplace harassment.
    Mr. Cameron. Yes, thank you for that question, Mr. Gohmert.
    Both under Secretary Zinke and now Secretary Bernhardt, 
there is considerable attention being paid on the part of the 
Department of workplace harassment issues. Totally 
unacceptable. The Department has a no-tolerance policy.
    When he was Deputy Secretary, Secretary Bernhardt directed 
all the bureaus to come up with action plans that would deal 
with the harassment issue. And he held quarterly meetings with 
those bureaus to track what they were doing on the harassment 
plans.
    I have personally participated in a series of site visits 
and meetings with employees to communicate the significance of 
the issue and the need to deal with it. So, we are going on all 
cylinders to try to fix these problems, Mr. Gohmert.
    Mr. Gohmert. Well, I figure any organization that has the 
kind of harassment claims that DOI has had needs reassessment 
and reorganization to try to avoid that. You also need 
reassignment of individuals, if they can't be fired. When I was 
in the Army, the threat was always you are going to end up on 
the island at the end of the Aleutian--just a small listening 
post. But if you can't fire them, they need to be reassigned if 
they are guilty of any type harassment and you are not able to 
fire them, but that ought to be part of any reorganization.
    And I would also tell you, with regard to the Park Service, 
I was absolutely appalled, being the guy that opened the World 
War II Memorial, when barricades had been rented or purchased 
and put up in an open air memorial to do nothing but harass the 
Nation's veterans that put their lives on the line. And it was 
clear, I mean whether it is Mount Vernon, where Federal 
Government only owned the parking lot, they did everything they 
could to make everybody's life miserable.
    I was really proud of Iwo Jima veterans. When I got over to 
try to open that memorial for them, the bus of World War II 
veterans had already just run over and busted up the barricade. 
They said, ``We didn't let the enemy keep us from getting to 
the top of Mount Suribachi, and we weren't going to let a 
little wooden barricade keep us from the memorial.''
    But that kind of harassment of the public in general--and 
everybody I talked to at the lowest levels of the Park Service 
had nothing to do with it. They loved working with people and 
trying to make things accommodating, but that came from high 
levels at the Park Service.
    I was part of a Christian gathering, maybe 200,000. At the 
last minute, high up in the Park Service, they have one small 
opening, which forced people to stand in line for hours, and 
then they tried to close it down early because they didn't have 
enough water because they didn't anticipate the last-minute 
directive by the Park Service.
    So, please keep in mind those kind of things as you look at 
the reorganization. I appreciate it.
    Mr. Cameron. Yes, sir, absolutely.
    Mr. Cox. We will recognize the gentleman from Arizona for 5 
minutes.
    Mr. Grijalva. Thank you. Mr. Cameron, in the testimony you 
said in response to the feedback that the agency received from 
tribes, that the Bureau of Indian Affairs, the Bureau of Indian 
Education, the Office of Special Trustee for American Indians 
would be left out of the reorganization.
    I have a letter here from a BIA regional office telling 
tribal leaders in my own district that the Department is 
closing an office and consolidating the workload to another 
office.
    We also heard from Chairman Frazier about the Great Plains 
lacking a permanent regional director after the last one was 
moved around several times.
    We have the communications from the National Congress of 
American Indians to Mr. Bernhardt back in December that DOI 
``has not consulted with tribes regarding the overwhelming 
internal restructuring of BIA within the last 2 years. Much 
change has occurred within BIA, none of which was consulted on 
with tribes.''
    It doesn't sound to me like the tribes are getting their 
wish of being left out of the reorganization at this point. I 
have been hearing that that is happening throughout Interior. 
Mr. Cameron, will you commit to giving this Committee a list of 
programs and offices that have been closed, consolidated, or 
reduced in staff by more than 30 percent since January 20, 
2017, so that we can have that information?
    Since we don't have a plan, at least we know what the 
unspoken plan is at this point.
    Mr. Cameron. Chairman Grijalva, I will be happy to take 
that back and see if we can pull together that information.
    I would point out that, in every administration going back 
to 1849, there are always internal changes that are being made. 
At a micro-scale, offices are being opened, offices are being 
closed, staff or functions are being moved from one place to 
another. So, it shouldn't surprise anyone that something could 
be happening in BIA or BIE over a period of time, but it is 
unrelated to the broader reorganization activity of the 
Department.
    I would also like to point out----
    Mr. Grijalva. Oh, I will be surprised if we get that 
information promptly, to be honest with you, given the track 
record here. We don't have a plan. That is in some space that 
we can't have access to it, even though it is an Oversight 
Committee, even though it is our jurisdiction.
    It seems to be a plan that is full of details after the 
fact. And even on this request about which was reduced by 30 
percent, we will wait and see how the leadership in Interior 
responds to that.
    Mr. Bromwich, I was going to ask about reorganization and 
the issue of how successful it can be or can't be. You pointed 
out some points. If a reorganization for the purposes of 
efficiency, better response to the public, better enforcement, 
and appreciation for the legal mandates that an agency might 
have, if that was a reorganization heading in that direction, 
for efficiency and response, how do you plan for that?
    Mr. Bromwich. You plan for it by identifying what the 
inefficiencies and problems are. You identify the problems, and 
then you figure out a way to solve them. You don't announce a 
global reorganization in response to vague concerns. Maybe a 
small number, maybe a large number of specific concerns if the 
reorganization is not designed to address them.
    That is why you have to have an analysis of what the 
problems are. And if you are thinking of a reorganization, 
before you announce it you do that analysis. You publicize that 
analysis. You discuss the changes you are considering with the 
stakeholders, particularly your own employees who are going to 
be responsible for implementing it, and then you remain 
flexible in making adjustments to it, depending on the analysis 
that you do and the feedback that you get.
    What seems to have happened here is people fell in love 
with a very ambitious reorganization plan without doing the 
very important, essential spade work to see what was necessary 
and how to accomplish it.
    Mr. Grijalva. Would that fit the definition of a vanity 
plan?
    Mr. Bromwich. Would it fit the definition of what?
    Mr. Grijalva. A vanity plan that you said earlier----
    Mr. Bromwich. Yes.
    Mr. Grijalva. OK.
    Mr. Bromwich. Yes. You announce something with a big press 
release, a big set of statements, and then staff is left to 
fill in the details.
    Mr. Grijalva. I yield back, Mr. Chairman.
    Mr. Cox. Thank you so much. We will now recognize the 
gentleman from Utah, Mr. Bishop.
    Mr. Bishop. Thank you. Mr. Grijalva, that is the way 
everything is done around here. It is a vanity plan staging----
    Mr. Grijalva. I work out of humility, sir, humility.
    Mr. Bishop. Yes, right, OK.
    Mr. Cameron, let's talk about some of that spade work that 
happens. What does SES mean?
    Mr. Cameron. Senior executive service.
    Mr. Bishop. And did you not have one of those SES--a 2-day 
conference with those people on this plan?
    Mr. Cameron. We did, sir. It was more than a year ago. We 
brought in all the regional----
    Mr. Bishop. Did they have recommendations?
    Mr. Cameron. We spent 2 days chatting with them, they gave 
us lots of ideas, and we modified our original conception of 
the plan based on their feedback.
    Mr. Bishop. So, you have implemented those types of things?
    Mr. Cameron. Yes, sir. We are in the process of 
implementing them.
    Mr. Bishop. And as you go and talk to interest groups, 
whatever they be, you have implemented those changes, the 
changes from the county lines to the state lines. Was that 
pushed by the states?
    Mr. Cameron. It was pushed by the Western Governors 
Association, in particular.
    Mr. Bishop. Look, I don't want to actually defend any 
bureaucracy in Washington, especially because the Department of 
the Interior, let's face it, if you were actually a business, 
you would have been bankrupt years ago.
    But you have not just been silent on these issues. I am 
just looking at this. You already have provided 27,000 pages of 
documents in response to questions about Secretary Bernhardt's 
schedule. The Committee has received 19,982 pages from the DOI 
in response to inquiries on the Trump administration's 
revisions on national monuments. You provided the Committee 
with telephone records of the Bureau of Safety and 
Environmental Enforcement Director, requested by the Majority. 
DOI has provided a response letter to the Majority seeking 
information documents related to their proposed reforms and an 
FOIA request. Outstanding Committee requests currently being 
negotiated include scheduling transcripts, interviews with four 
members of Secretary Bernhardt's staff regarding calendars. You 
have been sending stuff up to us. It is not just a void that 
happens to be down here.
    Are you planning on a third round? Unfortunately, I have a 
life outside of this Committee, so I am going to have to leave 
after this one. I will apologize for leaving you alone there.
    But you are dealing with people. If government was 
producing widgets on an assembly line, you could give some kind 
of statistical data of what is or is not working. What you are 
dealing with right now are individuals, and how can you 
maximize the efficiency of those individuals, vis-a-vis the 
people that they are allegedly supposed to serve.
    From my personal experiences in dealing in the West--and I 
live in one of those states that 60 percent of us, 60 percent 
of my state is controlled by you, you are the slum lords of 
Utah--it is easy to work with the local officials. They live in 
the community. They know the situations. They usually are the 
most creative.
    And almost any time we have a problem, it is as those 
creations go up the food chain and end up in Washington. That 
is why we have the significant problem of how do we actually 
make Washington understand what is happening a 4-hour plane 
ride away from what is going on.
    So, the question is can you have good, decent people here 
in Washington make good, decent decisions? Of course, you can. 
Can you have good, decent people in the localities making good, 
decent decisions? Of course, you can. Can you have rotten 
officials in both places? Yes, and we have. The question is 
what would give the propensity of a better organization? How 
can people at some point actually know how they can get to a 
solution and talk to somebody who is making a decision?
    Let's face it. I tell my constituents I have the greatest 
job in the world. You don't know what I do and you can't get a 
hold of me. And if you don't like the decisions our agencies 
do, what are you going to do, fly back to Washington and throw 
rocks at the window? It just doesn't happen.
    If those decisions are going to be made closer to where the 
people are, the propensity will be those decisions will be more 
reflective of what their needs are, and there is an opportunity 
of getting some kind of feedback. It doesn't happen in the 
status quo. It hasn't happened in decades back here with the 
status quo.
    So, this vision of what can happen is something that I 
certainly hope is going to be pursued. Because you are talking 
about how we can give services to people. Not responding to 
lawsuits, not responding to special interest groups, but how 
you can get response back to people, and how they can have 
their input.
    Now, I would love to ask you some more questions on what 
you think you can do, like USGS going to Denver--why you want 
to be in Denver I don't know, but the USGS going back there--
what the possibility would be there. But I only have 22 
seconds. If you can say something in 15 seconds, go for it.
    Mr. Cameron. You are absolutely right, your analysis of the 
situation. And by having decision makers within a 1-hour plane 
ride instead of a 4-hour plane ride, you are going to have it 
easier for constituents to get the decision makers, and you are 
going to have people who are making the decisions who actually 
understand what is happening on the ground.
    Mr. Bishop. I don't want a 1-hour plane ride, I want to 
walk around the block to him.
    I yield back.
    Mr. Cox. Thank you very much, Mr. Bishop. I will recognize 
myself for 5 minutes. And to continue along that same vein, I 
would like to just add that over 90 percent of Interior 
employees already work outside the DC region. So, in fact, what 
we kind of said before is this is really a solution in search 
of a problem.
    But with regard to the unified regions, the question is why 
12 regions? Secretary Zinke envisioned having Interior Regional 
Directors, or these IRDs in charge of each of these 12 regional 
unified regions. And in your testimony you said, ``We're 
exploring what the permanent role might be for an individual 
designated as an Interior Regional Director.''
    You are proposing to stand up an entirely new layer of 
bureaucracy without knowing what the people working there will 
do all day or what their authority will be. Would that be a 
correct statement?
    Mr. Cameron. Mr. Chairman, so we are looking at--the focus 
would vary from region to region, because the issues in 
California are different from the issues in the Southeast or 
from the Great Lakes, or from the Northeast. So, the particular 
portfolio of an Interior Regional Director would vary, based on 
the needs of the area. California and Texas are very different.
    Mr. Cox. Thanks. And can you offer how these ideas will be 
selected? Will they be chosen by the Executive Resources Board, 
which is stacked with political appointees and run by Mr. 
Bernhardt?
    And last year, I think the plan was for Mr. Bernhardt to 
have veto authority over decisions made by the IRB. Is that 
still the case?
    Mr. Cameron. Well, ultimately, the Secretary of the 
Interior is responsible for virtually every decision at the 
Department. So, the buck ultimately stops in the Secretary's 
office. If these are members of the senior executive service, 
which is the current plan, then by definition their selection 
would be approved by the Executive Resources Board.
    And it is worth pointing out there are career civil 
servants on the Executive Resources Board.
    I would also like to point out that since President Carter 
signed the Civil Service Reform Act in 1978, it has been policy 
that SES-ers should be rotating on a fairly regular basis. The 
OPM target is 15 percent a year, and that has rarely been 
realized.
    Mr. Cox. Thanks. And with respect to the plan for Mr. 
Bernhardt to veto authority over decisions made by the IRD, 
will that still be the case?
    Mr. Cameron. Well, as Secretary, ultimately he is 
responsible for all key decisions at the Department, as is the 
case now, and has been the case for 150 years. So, yes, the 
Secretary ultimately has the ability within the constraints of 
law to change decisions that are made lower in the 
organization.
    Mr. Cox. Thanks so much. And to each of the witnesses, is 
there anything else you would like to add? And we can start 
with Chairman Frazier.
    Mr. Frazier. Thank you. One of the things--and I was just 
thinking back when we were talking about getting everybody back 
together, or how it would be easier for tribes--this past 
spring, when we were having flooding, USGS has a measuring 
station down along the Moreau River, where I live, in the 
community of Whitehorse, South Dakota.
    One of the things is they came and they never did talk to 
us. And finally, one day we found out they were going down 
there to collect data, because we needed to be prepared in case 
there was more flooding going to happen. The only way that they 
talk to us is I had to send a tribal police officer down to 
tell him that I was wanting to get a report on what is going 
on.
    So, even though a lot of these agencies do not communicate, 
do not consult with tribes--USGS, minerals--it seems like they 
don't have the experience to know issues of Indian tribes and 
Indian people. That is kind of a big issue, and it needs to be 
resolved, whether this reorganization happens or not. And this 
is the guy to do it, I guess. Thank you.
    Mr. Cox. Thank you.
    Ms. Rappaport Clark?
    Ms. Clark. Thank you. I just have to say I think this is 
becoming more confusing.
    There seems to be some suggestion that decisions only 
happen in Washington. And there are 70,000 employees at the 
Interior Department, many of which, as you mentioned, are in 
the West. And there are qualified refuge managers, park 
superintendents, state directors of the Bureau of Land 
Management, all of whom work very closely and collaboratively.
    Are there conflicts from time to time? Yes. And I agree 
with Mr. Cameron that the buck does stop with the Secretary of 
the Interior. But moving and reorganizing to deal with 
undefined or ill-defined challenges, it seems to me to be 
really wrongheaded and reckless.
    And the notion that senior executive service folks are 
supposed to be moved around might be true based on a President 
Carter-signed memo, but, clearly, the way that it has been 
handled by this Administration with surprise letters and no 
consultation--and the consultations that have occurred with the 
senior executives on this issue are lectures, not conversation.
    There is a culture of fear now, Mr. Chairman. And folks are 
not sharing their concerns, their thoughts, their contributions 
for fear of what will happen when they raise their head and 
offer opinions. The employees of the Department are not in a 
good place. And this reorganization isn't helping it.
    Mr. Cox. Thank you so much. With that, I will recognize the 
gentlemen from Texas.
    Mr. Gohmert. Thank you, Chairman. Well, I want to follow up 
on the question for the process of relocating headquarters 
staff positions West.
    Mr. Cameron, explain the process for relocating 
headquarters staff West.
    Mr. Cameron. Thank you, Mr. Gohmert. What we are doing is 
we are looking at--we are having conversations with the 
leadership of USGS and BLM on this topic. We are identifying 
geographic options. USGS seems to be honing in on the Denver 
Metropolitan Area. BLM less so. I think there are more places 
in play. We are having conversations with the General Services 
Administration about the availability of office space in 
various locations, about the cost of office rent in various 
locations.
    We are--BLM, in particular, I think, is having 
conversations with headquarters staff about who might want to 
move West and who might want to go on a voluntary basis. It is 
sort of dependent upon the selection of a city. So, those 
conversations are ongoing.
    Congress appropriated $17.5 million in 2019. We only got 
that money around 2 months ago. So, I think it is unreasonable 
to think that we would have it all spent and clearly defined by 
now. Besides, we have an obligation to communicate with the 
appropriators on what our plans are for spending that money.
    So, those are just some of the things. In terms of benefit 
cost analysis on the administrative functions, we have gotten a 
report from one consulting firm on information technology, a 
second one on our procurement function, a third one coming out 
this summer on human resource management. So, we think we will 
have lots of intellectual fodder to make intelligent decisions 
to save money on back-office functions so we can have more 
dollars going to the front line.
    Mr. Gohmert. Well, what are some of the benefits you have 
seen from the Bureau of Reclamation moving West?
    Mr. Cameron. The vast majority of the headquarters 
operation for Reclamation has been in Denver for quite a few 
years. To Mr. Bishop's point earlier, it is just a lot easier 
for constituents to go to Denver from Utah or from Nevada or 
from Arizona or from Texas than to have to go all the way to 
Washington, DC if they have a problem.
    Also, the people who are located in Denver are much more 
familiar with Western issues because they are much more likely 
to get out on the ground, to Mr. Bishop's point, as well. So, 
we think we have better decision making because we have 
elements of headquarters outside of Washington in the vicinity 
of the people who are actually being served by those missions 
of the Department, and we anticipate with BLM and USGS there 
will be similar advantages.
    Mr. Gohmert. Well, I know from confronting people that work 
for Department of the Interior around different places in the 
country, one the most common expressions you hear in response 
to our questions is, ``That is above my pay grade, I don't 
know.'' So, it would be nice to have the people who are making 
those decisions at their pay grades out there closer to what is 
happening.
    You mentioned previously that the Department of the 
Interior commissioned three external assessments examining 
human resources management. And that further makes a point--the 
USGS was mentioned a number of times in the hearing today. They 
were always considered the gold standard when it came to any 
type of measurement. And then we have had hearings in this room 
where we found out USGS had people that just commonly changed 
the actual measurements without any manner or means, no 
explanation for why they were routinely changed from what they 
factually were.
    So, I can't help but think that if people--whether it is 
the 90 percent that are out in the field, if they have 
supervisors that are closer to them, that we will see better 
results and less misapplication.
    Mr. Cameron. I think you are absolutely right, Mr. Gohmert. 
Having senior management closer to on-the-ground activity is 
always going to produce closer supervision, better 
communications, and we hope, quite frankly, that more decisions 
will be made by solid regional leaders, career SES leaders, and 
fewer decisions will be kicked up to Washington, where the 
opportunity to make a mistake is perhaps higher, because a 
decision maker is remote and not as knowledgeable of local 
issues.
    Mr. Gohmert. OK, thank you, and I appreciate the Chairman 
having the hearing.
    Mr. Cox. Thank you so much. I want to thank all the 
witnesses again for being here today.
    Reorganizations are time consuming and expensive efforts. 
As we have heard today, success depends on careful analysis and 
meaningful consultation with employees, Congress, states, 
tribes, and local governments and other stakeholders. To date, 
Interior's reorganization has been done in the dark, without 
analysis and meaningful consultation. This Committee has yet to 
see any real information. As a result, the Department is 
failing in its responsibilities to this country's citizens, 
Native nations, and Native peoples. It is failing in its 
responsibilities to its employees, and is also failing in its 
responsibility to manage its resources for the Nation's future 
generations. And that is just unacceptable.
    Secretary Bernhardt has an opportunity to course-correct. I 
hope he takes that opportunity.
    I am going to ask unanimous consent to insert the following 
documents into the record: Defenders of Wildlife letter to 
Secretary Zinke dated May 29, 2018; Great Plains Tribal 
Chairmen's Association, Inc. letter dated August 20, 2013; the 
GAO report 18-427, ``Government Reorganization: Key Questions 
to Assess Agency Reform Efforts.''
    The members of the Committee may have some additional 
questions for the witnesses, and we will ask you to respond to 
these in writing. Under Committee Rule 3(o), members of the 
Committee must submit witness questions within 3 business days 
following the hearing, and the hearing record will be held open 
for 10 business days for these responses.
    If there is no further business, without objection, the 
Committee stands adjourned.

    [Whereupon, at 11:40 a.m., the Subcommittee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

Submission for the Record by Rep. Cox

                        Testimony for the Record

       John Garder, Senior Director of Budget and Appropriations,

                National Parks Conservation Association

    Since 1919, National Parks Conservation Association (NPCA) has been 
the leading voice of the American people in protecting and enhancing 
our National Park System. On behalf of our more than 1.3 million 
members and supporters nationwide, I write to express our deep concern 
with the administration's proposal to reorganize the Department of the 
Interior (DOI). Particularly for a proposal of such magnitude, the 
effort should offer much greater transparency to the American public 
and to lawmakers and should allow for authentic opportunities for 
stakeholder involvement. A year into the proposal after many hours of 
work by personnel who have other matters to which to attend, there 
remains massive confusion. Foremost, it remains unclear what exactly 
the purpose of the proposal is beyond vague talking points, what 
precisely are the problems to be solved, and how the expenditure of 
valuable taxpayer dollars would better serve our public lands, their 
stewardship and the American public.

    Among our chief concerns is that the conservation mission of the 
National Park Service (NPS) could be undermined by the proposed DOI 
regional leads. The concept of Interior Regional Directors is worrisome 
for several reasons, chief among them that DOI staff could have 
authority over NPS regional directors. Line authority over those NPS 
career staff would be detrimental to the autonomy and integrity of NPS 
decision-making to meet its unique mandate to protect resources and 
provide for public enjoyment insofar that it can be consistent with 
that protective responsibility. Even without line authority, the 
involvement of DOI staff in the careful and science-based decision-
making of NPS threatens confusion and compromises to NPS' mission.

    We are also concerned about the lack of transparency in how FY 19 
funds are being used and for what exactly valuable FY 20 funds would be 
used. Staff confusion and demoralization are additional threats posed 
by the proposal.

    NPCA commends the committee's oversight of this important issue and 
supports your continuing work, and that of appropriators, in this 
regard. Absent any clarity from the administration on use of FY 19 and 
FY 20 funds and any clear, justifiable demonstration of the reasons for 
the reorganization, benchmarks, a timeline and realistic roadmap, and 
assurances that the effort would ultimately benefit our public lands 
and the Americans who own them, we urge the Congress to take 
appropriate and immediate measures to prevent DOI from engaging in this 
risky and dangerous effort.

                                 ______
                                 

Submission for the Record by Rep. Grijalva

                        Testimony for the Record

   USET--United South and Eastern Tribes Sovereignty Protection Fund

    The United South and Eastern Tribes Sovereignty Protection Fund 
(USET SPF) is pleased to provide the House Natural Resources 
Subcommittee on Oversight and Investigations with the following 
testimony for the record of its oversight hearing entitled, ``No Road 
Map, No Destination, No Justification: The Implementation and Impacts 
of the Reorganization of the Department of the Interior.'' USET SPF 
supports the House Natural Resources Committee in its exercise of 
oversight authority in the case of the Department of the Interior's 
(DOI) proposed reorganization. Nearly a year and a half after its 
announcement, Indian Country continues to have more questions than 
answers from DOI on this massive undertaking. The near-complete lack of 
information provided to Tribal Nations is unacceptable, regardless of 
whether the Bureau of Indian Affairs (BIA) is included in the 
reorganization. We continue to urge DOI to provide clarity regarding 
reorganization logistics, purpose, and effects on Indian Country, and 
to consult with Tribal Nations on these details.

    USET SPF is a non-profit, inter-tribal organization representing 27 
federally recognized Tribal Nations from Texas across to Florida and up 
to Maine.\1\ USET SPF is dedicated to enhancing the development of 
federally recognized Tribal Nations, to improving the capabilities of 
Tribal governments, and assisting USET SPF Member Tribal Nations in 
dealing effectively with public policy issues and in serving the broad 
needs of Indian people. This includes advocating for the full exercise 
of inherent Tribal sovereignty.
---------------------------------------------------------------------------
    \1\ USET SPF member Tribal Nations include: Alabama-Coushatta Tribe 
of Texas (TX), Aroostook Band of Micmac Indians (ME), Catawba Indian 
Nation (SC), Cayuga Nation (NY), Chitimacha Tribe of Louisiana (LA), 
Coushatta Tribe of Louisiana (LA), Eastern Band of Cherokee Indians 
(NC), Houlton Band of Maliseet Indians (ME), Jena Band of Choctaw 
Indians (LA), Mashantucket Pequot Indian Tribe (CT), Mashpee Wampanoag 
Tribe (MA), Miccosukee Tribe of Indians of Florida (FL), Mississippi 
Band of Choctaw Indians (MS), Mohegan Tribe of Indians of Connecticut 
(CT), Narragansett Indian Tribe (RI), Oneida Indian Nation (NY), 
Pamunkey Indian Tribe (VA), Passamaquoddy Tribe at Indian Township 
(ME), Passamaquoddy Tribe at Pleasant Point (ME), Penobscot Indian 
Nation (ME), Poarch Band of Creek Indians (AL), Saint Regis Mohawk 
Tribe (NY), Seminole Tribe of Florida (FL), Seneca Nation of Indians 
(NY), Shinnecock Indian Nation (NY), Tunica-Biloxi Tribe of Louisiana 
(LA), and the Wampanoag Tribe of Gay Head (Aquinnah) (MA).
---------------------------------------------------------------------------
Failure to Meaningfully Consult

    USET SPF is deeply opposed to the manner in which DOI has conducted 
itself as it pursues reorganization activities, and in the absence of 
nearly any specifics, to the reorganization itself. Indeed, DOI's 
reorganization proposal has been developed with little clarity or 
transparency and without meaningful Tribal consultation. Despite 
publicized meetings with DOI officials and state and local governments 
on the development of the proposal, Tribal Nations were not engaged in 
this manner, notwithstanding trust and treaty obligations, and Tribal 
consultation was not initiated until May 17, 2018. Prior to and 
following the issuance of the DOI's ``Dear Tribal Leader'' letter 
seeking input from Tribal Nations, USET SPF, along with Tribal Nations 
and organizations across the country, repeatedly sought answers (both 
formally and informally) to the myriad questions surrounding the 
proposal. To date, DOI has not responded. Rather, DOI officials decided 
that BIA would not participate. At a November 2018 meeting of the 
Tribal Interior Budget Council, Assistant Secretary for Indian Affairs, 
Tara Sweeney, indicated that a ``Dear Tribal Leader'' letter (DTLL) 
regarding the reorganization and its impacts was forthcoming. Indian 
Country continues to await this clarifying letter.
Execution of Trust Obligations and Inherent Federal Functions Must be 
        Protected

    As DOI moves forward with its reorganization, the execution of the 
federal government's trust responsibility and obligations must be 
paramount. These positions and agencies, and all inherent federal 
functions must be preserved. This includes ensuring that all DOI 
operating divisions and agencies are focused on upholding these duties. 
It is of deep concern that the current reorganization plan appears to 
be developed with the Department's natural resources-related functions, 
and not its trust obligations, in mind. According to briefings we have 
received on the reorganization, the new, unified regions will each be 
overseen by a regional director whose charge will be the following 
priorities: conservation, recreation, and permitting. The trust 
responsibility and obligations are glaringly absent from this list.

    In light of this, it remains unclear to USET SPF and others across 
Indian Country how DOI will prioritize the execution of the trust 
responsibility under the proposed model. Considering the list of 
priorities for the new regional directors, how will the reorganization 
affect the execution of the trust responsibility and obligations? How 
will each operating division and regional director prioritize the 
government-to-government relationship? To date, DOI has not provided 
satisfactory answers to these very basic questions.
Impacts Remain Unclear

    In addition to a lack of clarity surrounding DOI's sacred duty to 
Tribal Nations, the practical effects upon the BIA and other bureaus 
and functions also remain unclear. While representatives from DOI 
continue to state BIA will not participate in the reorganization, 
Indian Country has not been given any indication as to how BIA will or 
will not be affected, nor whether participation would have any benefit 
to Tribal Nations. How will BIA operate under the unified regional 
model? How will service delivery change? These unknowns do not allow 
for a position on BIA participation.

    Further, DOI has yet to provide Indian Country or Congress with a 
cost-benefit analysis concerning the reorganization. Yet, DOI continues 
to request tens of millions of dollars for the reorganization, 
including nearly $28 million for Fiscal Year 2020. As the 
reorganization moves forward, this number is likely to increase 
exponentially. It is not possible for Indian Country or Congress to 
understand the full ramifications of the reorganization without a full 
cost estimate, anticipated savings, and better articulated goals.
Need for Broader Consultation

    While DOI's attempt at consultation seems to have exclusively 
focused on whether BIA will participate in the reorganization, each 
agency and operating division within DOI shares in the trust 
responsibility and obligation to Tribal Nations. Indeed, Tribal Nations 
regularly interact with many of DOI's other divisions, including the 
Bureau of Land Management, U.S. Fish and Wildlife, and the National 
Park Service. With this in mind, Tribal Nations must be consulted on 
the DOI reorganization as a whole, not merely BIA's participation.
Changes and Restructuring in the Absence of Consultation

    We are aware that a number of personnel and programmatic changes 
have been made without Tribal consultation and, in some cases, over the 
objections of Tribal Nations. While we understand that the Department 
is afforded the latitude to make employment decisions, Tribal Nations 
should be consulted as senior staff are reassigned--particularly at the 
regional level.
    Similarly, we note the inclusion of the reorganization as 
``Strategy #1'' in DOI's FY 2018-2022 Strategic Plan, which appears to 
have been posted to DOI's website on March 5, 2018. This Strategic Plan 
has also not received sufficient Tribal consultation. While a listening 
session was scheduled in the Eastern Region for August 2017, it was 
later canceled and never rescheduled. Nonetheless, the Plan states,

        ``The DOI intends to establish unified regional boundaries for 
        its bureaus in 2018 and to further develop this approach in 
        2019. The goal is to improve overall operations, internal 
        communications, customer service, and stakeholder engagement. 
        Aligning geographic areas across the DOI will enhance 
        coordination of resource decisions and policies and will 
        simplify how citizens engage with the DOI.''

    The contents of the Strategic Plan appear to be in conflict with 
DOI's commitment to ensure Indian Country chooses whether to 
participate in the reorganization, as well as page 11 of the document, 
which includes, ``effectively consulting with Tribal governments.''
Importance of the Eastern Region Office

    Historically, as part of past reorganization/restructuring efforts, 
USET SPF member Tribal Nations have consistently had to fight to 
protect the BIA Eastern Region Office. We are adamantly opposed to any 
effort to eliminate this office. Previous efforts to fulfill Eastern 
Region trust obligations through other BIA regional offices have failed 
and proven that Eastern Region Tribal Nation interests are secondary to 
the interests of the Tribal Nations within those regions tasked with 
providing contracted services. While our most recent discussions with 
DOI indicate that the Eastern Region Office would be preserved, its 
ongoing relationship with both DOI headquarters and the new, unified 
regional offices has not been articulated.
Any Changes must Promote Improved Execution of Trust Obligations

    USET SPF member Tribal Nations acknowledge that there may 
unnecessary levels of bureaucracy and redundancies at DOI and this 
belief is consistent with our organizational effort to modernize the 
trust relationship. However, any eliminations or changes must be 
accomplished with the intent to (1) achieve more timely and seamless 
execution of federal trust obligations, and (2) promote greater Tribal 
Nation self-determination.

    The current trust model is broken and based on faulty and 
antiquated assumptions from the 19th Century that Indian people were 
incompetent to handle their own affairs and that Tribal Nations were 
anachronistic and would gradually disappear. It is time for a new model 
that reflects a truly diplomatic, nation-to-nation relationship between 
the U.S. and Tribal Nations, and that empowers each Tribal Nation to 
define its own path. This mission should inform each action taken by 
this Administration affecting Tribal Nations, including any 
reorganization of DOI.

    In addition, any cost-savings must be directed to improved 
execution of trust obligations. Any potential cost savings derived from 
the reorganization should be redirected to augment the severely 
underfunded Tribal programs and trustee services provided by Indian 
Affairs, as well as other as other Tribal programs and services 
provided by agencies within DOI.
Conclusion

    DOI must work to provide clarity to Indian Country prior to moving 
forward with further reorganization efforts. This includes much more 
than a take-it-or-leave-it approach to the reorganization as it 
pertains to Indian Country. USET SPF remains hopeful that the 
Department will take the opportunity to modernize the federal 
government and execution of the federal trust responsibility in a way 
that upholds the obligations of our sacred government-to-government 
relationship and promotes the full exercise of Tribal sovereignty. In 
the meantime, USET SPF urges Congress to continue to hold DOI 
accountable and withhold additional funds for the reorganization until 
DOI provides additional information and conducts meaningful 
consultation with Tribal Nations. Should you have any questions or 
require further information, please contact Ms. Liz Malerba, USET SPF 
Director of Policy and Legislative Affairs, at XXX-XXX-XXXX.

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Submissions for the Record by Rep. Cox

  --  Public Lands Foundation, ``Maintaining the Bureau of Land 
            Management Headquarters in Washington, D.C., dated 
            April 2019.

  --  GAO Report (GAO-18-427) on Government Reorganization--Key 
            Questions to Assess Agency Reform Efforts, dated 
            June 2018.

  --  Letter from Defenders of Wildlife to Sec. Zinke, dated 
            May 29, 2018.

  --  Letter from Great Plains Tribal Chairmen's Association to 
            Sec. Zinke, dated July 15, 2017.

Submissions for the Record by Rep. Grijalva

  --  Letter from USET to Tara Sweeney, Asst. Sec. Indian 
            Affairs, Bureau of Indian Affairs, dated September 
            21, 2018.

  --  USET SPF Resolution No. 2019 SPF:005--Opposition to DOI 
            Reorganization.

  --  Letter from USET to Secretary Ryan Zinke of the 
            Department of the Interior, dated April 13, 2018.

  --  Ute Indian Tribe of the Uintah and Ouray Reservation, 
            Testimony for the Record.

                                 [all]
</pre></body></html>
